Case: 19-40699

Document: 00515934729

Page: 1

Date Filed: 07/12/2021

Hmteti States Court of glppeate
for tfje jftftf) Circuit
No. 19-40699

Shahram Shakouri
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:15-CV-447

Before Dennis, Southwick, and Engelhardt, Circuit Judges.
Per Curiam:
Shahram Shakouri, Texas Prisoner # 1558021, was convicted by a jury
of aggravated sexual assault and sentenced to 23 years in prison. After the
United States District Court denied his federal habeas petition brought under
28 U.S.C. § 2254, he filed what he claimed was a post-judgment motion
under Rule 60(b) of the Federal Rules of Civil Procedure. The district court
determined that the motion instead was an unauthorized successive petition
and dismissed it for lack of jurisdiction. Shakouri then sought a certificate of
appealability (COA) in this court, which was denied.

£AkLbit.'A

Case: 19-40699

Document: 00515934729

Page: 2

Date Filed: 07/12/2021

19-40699

Shakouri now moves to file a motion for reconsideration out of time,
and then to have the court reconsider its denial of a COA. We GRANT the
motion to allow the late filing, but we DENY reconsideration.
First, Shakouri argues that the panel erred by finding that he raised
some of his ineffective-assistance-of-counsel claims for the first time on
appeal. He claims to have raised those claims in his post-judgment motion in
district court. Regardless of whether his post-judgment motion is
characterized as a motion under Rule 59(e) or under Rule 60(b), these claims
were raised for the first time in the post-judgment motion. Rule 59(e) cannot
be used to raise arguments presented for the first time in that motion.
Banister v. Davis, 140 S. C.t 1698,1708 (2020). A Rule 60(b) motion that
presents new claims is an unauthorized successive petition, which must be
rejected absent exception that are not relevant here. Gonzalez v, Crosby, 545
U.S. 524, 529-30, 532 (2005). Accordingly, Shakouri did not show that he
was entitled to a COA on these late-raised claims.
Second, Shakouri argues that the panel erred by failing to consider his
claims for relief under Brady v. Maryland, 373 U.S. 83 (1963). He contends
that the State withheld the testimony of two witnesses, Manteghinezad and
Hutchinson. Shakouri was not entitled to a COA on these claims because he
presented no credible evidence that the State suppressed favorable and
material evidence during either the trial or the habeas proceedings. See
Canales v. Stephens, 765 F.3d 551,574 (5th Cir. 2014).
Third, Shakouri argues that the panel erred by denying him a COA on
his claim that the State allowed the victim to present false testimony. This
argument is without merit because the Due Process Clause of the United
States Constitution is violated only when the prosecution knowingly uses false
testimony to obtain a conviction. Kinsel v. Cain, 647 F.3d 265, 271 (5th Cir.

2

Case: 19-40699

Document: 00515934729

Page: 3

Date Filed: 07/12/2021

19-40699

2011). Shakouri was not entitled to a COA because there is no credible
indication that the State knew that the victim’s testimony was false.
Fourth, Shakouri argues he was entitled to a COA based on his claim
that his trial counsel was ineffective by failing to request a lesser-includedoffense instruction. He contends that his counsel had no strategic reason for
failing to do so. Shakouri, though, has not shown that reasonable jurists could
disagree that the district court was correct in determining that he was not
entitled to habeas relief on this claim. See Miller-El v. Cockrell, 537 U.S. 322,
327 (2003).
Fifth, Shakouri contends that he is actually innocent of his crime of
conviction. However, such a claim is not a basis for habeas relief absent an
independent constitutional violation. See Herrera v. Collinsy 506 U.S. 390,
400-01 (1993). Because he has not shown an independent constitutional
violation, his actual innocence claim is not a basis for a COA.
Sixth, Shakouri did not show that his allegations related to defects in
the integrity of the state and federal habeas proceedings were entitled to
further review because he has not shown a corollary constitutional violation.
See Norman v. Stephens, 817 F.3d 226,233-34 (5th Cir. 2016).
Shakouri’s motion for leave to file out of time the motion for
reconsideration is GRANTED. Shakouri’s motion for reconsideration is
DENIED.

3

Case: 19-40699

Document: 00515867143

Page: 1

Date Filed: 05/18/2021

®ntteb States Court of appeals
for ttje $tftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 19-40699

May 18, 2021
Lyle W. Cayce
Clerk

Shahram Shakouri,

Petitioner—Appellant^
versus
Bobby Lumpkin, Director, Texas Department ofCriminal Justice,
Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:15-CV-447

Before Dennis, Southwick, and Engelhardt, Circuit Judges.
Per Curiam:
Shahram Shakouri, Texas prisoner # 1558021, was convicted by a jury
of aggravated sexual assault and received a sentence of 23 years in prison. He
now seeks a certificate of appealability (COA) to challenge the district court ’ s
denial ofhis 28 U.S.C. § 2254 petition challenging this conviction, along with
the denial of his postjudgment motion. Shakouri maintains that the district
court should not have applied a presumption of correctness to the state
court’s findings pursuant to § 2254(e) because the habeas judge did not
preside over his trial and there was no “full and fair” evidentiary hearing. He

£<&hdh. * *2*

Case: 19-40699

Document: 00515867143

Page: 2

Date Filed: 05/18/2021

No. 19-40699

contends that the prosecution violated his due process rights by failing to turn
over exculpatory evidence, by allowing the victim to present perjured
testimony without correction, and by relying on planted evidence. Shakouri
asserts that his trial counsel rendered ineffective assistance by failing to seek
suppression of evidence of pornography, by failing to object to the admission
of the pornographic evidence at trial, by failing to request a lesser included
offense instruction, and by failing to require the State to elect the specific
offense; he also contends that one of his appellate attorneys rendered
ineffective assistance by failing to withdraw after accepting a job with the
State. He maintains that he is actually innocent of the charges against him
and may therefore obtain relief. Shakouri alleges, as he did in his
postjudgment motion, that the State perpetrated fraud on the court at his
trial, during the state postconviction proceedings, and in the § 2254
proceedings. Although Shakouri presented other claims in the district court,
he does not brief them here, and they are deemed abandoned. See Hughes
v. Johnson, 191 F.3d 607, 613 (5th Cir. 1999). We decline to address
Shakouri5s assertions that trial counsel rendered ineffective assistance by
failing to investigate prior accusations of abuse by the victim and by failing to
challenge a motion in limine barring evidence of the victim’s sexual conduct,
which were presented for the first time in this court. See Henderson
v. Cockrell, 333 F.3d 592, 605 (5th Cir. 2003).
To obtain a COA, Shakouri must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,
529 U.S. 473, 483 (2000). He will satisfy this standard “by demonstrating
that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further. ” Miller-El
v. Cockrell, 537 U.S. 322,327 (2003). To the extent the district court rejected
Shakouri’s claims on their merits, he “must demonstrate that reasonable

Case: 19-40699

Document: 00515867143

Page: 3

Date Filed: 05/18/2021

No. 19-40699

jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack, 529 U.S. at 484; see also Miller-El, 537 U.S. at
338.
With respect to Shakouri’s claims regarding the deference to the state
court’s findings, prosecutorial misconduct, ineffective assistance, and actual
innocence, he has not made the requisite showing. See Slack, 529 U.S. at 484.
As for Shakouri’s challenge to the denial of his postjudgment motion,
reasonable jurists could debate whether the district court erred in concluding
that the motion, purportedly filed pursuant to Federal Rule of Civil
Procedure 60(b) within 28 days of the entry of final judgment, constituted an
unauthorized successive § 2254 proceeding. See id.; see also Banister v. Davis,
140 S. Ct. 1698, 1705-11 (2020) (holding that postjudgment motions filed
pursuant to Federal Rule of Civil Procedure 59(e) did not constitute
successive applications). However, to the extent that the district court
considered and rejected the merits of Shakouri’s claims of fraud and his
challenges to the denial of relief on the merits of his constitutional claims, he
has not shown that his claims are “adequate to deserve encouragement to
proceed further.” Miller-El, 537 U.S. at 327; see Hernandez v. Thaler, 630
F.3d 420, 428 (5th Cir. 2011) (stating that to obtain a COA to challenge the
denial of a postjudgment motion, a habeas petitioner must show that
reasonable jurists would conclude that the district court abused its discretion
in denying relief).
Accordingly, the motion for a COA is DENIED. His motion for
leave to file a supplemental brief before this court is GRANTED. As
Shakouri fails to make the required showing for a COA on his constitutional
claims, we do not reach whether the district court erred by denying an
evidentiary hearing. See United States v. Davis, 971 F.3d 524,534-35 (5th Cir.
2020), petitionfor cert, filed (U.S. Mar. 18, 2021) (No. 20-7553).
i

3

Case 4:15-cv-00447-RAS-CAN Document 35 Filed 09/24/18 Page 1 of 1 PagelD #: 3766

i

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
SHAHRAM SHAKOURI, #1558021

VS.

DIRECTOR, TDCJ-CID

§
§
§
§
§
§
§

CIVIL ACTION NO. 4:15cv447

ORDER OF DISMISSAL
The above entitled and numbered civil action was referred to United States Magistrate Judge
Christine A. Nowak. The Report and Recommendation of the Magistrate Judge, which contains
proposed findings of fact and recommendations for disposition of such action, has been presented
for consideration. Petitioner filed objections.
After reviewing the Report and Recommendation and conducting a de novo review of the
Petitioner’s objections, the court concludes the findings and conclusions of the Magistrate Judge are
correct and adopts the same as the findings and conclusions of the court. It is accordingly
ORDERED the petition for a writ of habeas corpus is DENIED, and the case is
DISMISSED with prejudice. A certificate of appealability is DENIED.
It is further ORDERED all motions by either party not previously ruled on are DENIED.
SIGNED this the 24th day of September, 2018.

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

ep/ub’t "C”

Case 4:15-cv-00447-RAS-CAN Document 36 Filed 09/24/18 Page 1 of 1 PagelD #: 3767

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

SHAHRAM SHAKOURI, #1558021
VS.

DIRECTOR, TDCJ-CID

§
§
§
§
§
§

CIVIL ACTION NO. 4:15cv447

FINAL JUDGMENT
Having considered the petition for writ ofhabeas corpus and rendered its decision by opinion
and order of dismissal issued this same date, the court ORDERS the case is DISMISSED with
prejudice.
SIGNED this the 24th day of September, 2018.

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

Case 4;15-ov-00447-ALM-CAN Document 31 Filed 08/02/18 Page 1 of 34 PagelD #: 3700

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

SHAHRAM SHAKOURI, #1558021

§
§
§
§
§
§

VS.

DIRECTOR, TDCJ-CID

CIVIL ACTION NO. 4:15cv447

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner Shahram Shakouri, an inmate confined in the Texas prison system, filed the abovestyled and numbered petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254, with the
assistance of counsel. The petition was referred to the undersigned United States Magistrate Judge
for findings of fact, conclusions of law, and recommendations for the disposition of the case pursuant
to 28 U.S.C. § 636 and the Amended Order for the Adoption of Local Rules for the Assignment of
Duties to the United States Magistrate Judge.
PROCEDURAL BACKGROUND
Petitioner is challenging his Collin County conviction for aggravated sexual assault, Cause
No. 21980595-07 (Dkt. #1). A jury found Petitioner guilty and sentenced him to twenty-three years ’
confinement (Dkt.#21-6 at 19).On August 30,2010,the Fifth Court of Appeals affirmed judgment,
Shakouri v. State, No. 05-09-00158-CR, 2010 WL 3386598 (Tex. App.-Dallas 2010). The Texas
Court of Criminal Appeals refused Petitioner’s petition for discretionary review (“PDR”) on May
13,2011, Shakouri v. State, PDR No. PD-0122-11. Petitioner then filed a state writ of habeas coipus
on June 29, 2012 (Dkt. #22-20 at 15), which was denied without written order based on findings of

1

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 2 of 34 PagelD #: 3701

the trial court without a hearing, on August 19, 2015 (Dkt. #22-16). Petitioner filed the instant
Section 2254 petition on June 29, 2015, prior to the decision of the state habeas court (Dkt. #1).
Petitioner asserts the following:
1.

Trial counsel was ineffective by:
a.

failing to file a motion to suppress evidence;

b.

failing to object to the admission of certain evidence;

c.

failing to object to improper voir dire;

d.

failing to request a jury instruction on a lesser-included offense;

e.

failing to object or request a limiting instruction; and

f.

failing to force prosecution to state the specific offense on which it would
rely for conviction;

2.

Petitioner was denied due process when the State planted evidence, presented
perjured testimony, and failed to disclose evidence favorable to the defense; and

3.

Petitioner is actually innocent.

The Government filed a response (Dkt. #16), stating Petitioner is not entitled to relief. Petitioner
filed a reply (Dkt. #24).
FACTUAL BACKGROUND
The state court of appeals described the facts as follows:
[Petitioner], who had lived in the United States for nearly 30 years, married Afsaneh
Marous in Iran in January 2006. After the wedding, [Petitioner] returned to the
United States, while Marous and her twelve-year-old son awaited their visas.
In May 2006, Marous and her son arrived in Dallas. That night, Marous alleged
[Petitioner] threw her onto the bed, handcuffed her arms above her head and raped
her. Marous stated the violence continued during sex, in that [Petitioner] would slap,
bite and punch her. Marous also testified that the first time [Petitioner] anally raped

2

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 3 of 34 PagelD #: 3702

her, he put his elbow into her back, pressed her head sideways onto the mattress with
his hand and forced his penis into her backside with such force that it displaced the
mattress.
She also stated that during anal sex, he would clutch her hair and pull her head back
toward him, yanking out her hair and ignoring her complaints. Marous explained that
he would press his weight against her so he could bind her ankles to the bed with
straps that left marks on her legs. He also used sex toys in her vagina and anus.
Marous testified that [Petitioner] seemed to derive pleasure from her pain and
explained when [Petitioner] failed to use lubrication for the sex toys, she would
bleed.
She complained that if she said “no,” he would hit and bite her. Marous testified that
[Petitioner] claimed if she said anything to anybody, “[he] would kill [her] and [her]
child ” She stated she was scared of him and for her son, and tried to appease him to
calm him down.
Beth Lyons, a member of the Baha‘i church that both [Petitioner] and Marous
attended, testified [Petitioner] “was controlling about what [Marous] did, who she
got to see, who she got to interact with, [and] who she was allowed to talk to on the
phone.” Marous testified [Petitioner] would not let her go anywhere by herself. She
explained:
I was like a prisoner in that house. If anybody would want to come to our house, he
had to know. If my mom wanted to call me, she has to call during the time he was at
home. If I would speak more than ten minutes, he would ask me-be suspicious of me.
He would tell me just call on Saturdays or Sunday, that way [he] would be home. He
didn’t want me to have any contact with my family. He took advantage of me being
alone, not having anybody, not having money. I didn't have nothing. No job. I
couldn’t speak any English. He took advantage of all of this.
After Marous and her son had been in the United States a few months, [Petitioner]
moved them to a house in Prosper, but Marous testified [Petitioner] continued to rape
and sodomize her with the sex toys. She stated, at one point, she took a home
pregnancy test and discovered she was pregnant. She knew [Petitioner] did not want
any more children and testified she was scared to tell him. When she did, [Petitioner]
was angry and for two “bad days,” he raped and punched her on the side. She
explained she eventually began to bleed and was no longer pregnant.
Lyons testified that, over the course of several months, the women in the Baha‘i
church noticed a change in both Marous and her son. Her son appeared more
withdrawn and would sit with his mother at church gatherings instead of playing with

3

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 4 of 34 PagelD #: 3703

the other children. During church gatherings, Marcus cried frequently during prayer
time and one church member thought she appeared to be losing her hair, especially
at the crown of her head.
Her son spent several hours in front of the computer webcam with Marcus's sister,
Ahdieh, who lived in Italy. Ahdieh testified her nephew did not want her to leave her
computer, so she kept it on, even when she slept, so her nephew would have someone
in his presence.
Marcus testified that, one night after [Petitioner] raped her, she was in pain and
called Akram Gheisar, a church member who spoke Farsi. She asked Gheisar to
speak to the church’s Assembly on her behalf. Gheisar told Lyons, who chaired the
Assembly, that [Petitioner] was abusing Marcus. The Assembly wrote a letter to
Marcus in Farsi, advising her that, for her own safety and that of her son, she should
go to a women's shelter in Plano. Lyons explained Marcus was too afraid to have the
letter in her possession, so Gheisar kept the letter until several weeks later.
Around that time, Ahdieh came for a visit at her nephew's insistence. Ahdieh took
the entire family on a trip to California and Las Vegas. Near the end of the trip, while
[Petitioner] was taking a shower in the adjoining hotel room, Marcus told Ahdieh
that [Petitioner] was beating her and that she was losing her hair because [Petitioner]
was pulling it out. Marcus showed her sister black marks on her wrists and ankles,
which Ahdieh, a medical doctor, thought resembled marks left behind by handcuffs.
Marcus testified she suspected [Petitioner] knew of her disclosure to her sister,
because, on their trip home, he called her on her cell phone (even though she was in
his line of sight) and threatened to rape and kill her. Ahdieh heard [Petitioner] tell
Marcus, “I will rape you as soon as your sister will go back to Italy in a way that you
will not be able to sit up.” Marcus testified that, when they returned home,
[Petitioner] called his brother and told him he would kill Marcus, her son and
Ahdieh.
Frightened by what she overheard, Marcus went into the room her sister was staying
in and the two women hid in the closet. Her son testified he overheard [Petitioner]
say, “I'm going to set them on fire; I'm going to kill them.”
The next morning, after [Petitioner] left for work, Marcus and Ahdieh spoke with
some of the Baha‘i church members, who read Marcus the letter they had prepared,
recommending a particular women’s shelter that had a counselor who spoke Farsi.'
That same morning, Marcus, her son and Ahdieh gathered their things and were
loading them into the cars of church members when [Petitioner] arrived. To keep the
peace, church members called the Prosper police. Officer Baxter testified that, when

4

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 5 of 34 PagelD #: 3704

he arrived, Marous and her son were scared and Ahdieh started translating what
Marous was saying. At that point, Baxter heard information suggesting a crime had
occurred, specifically, [Petitioner’s] threat to kill Marous, her son and Ahdieh. The
police investigation began.
After Marous moved into a shelter, she met again with Officer Baxter and told him
about the sexual abuse through the Farsi-speaking counselor at the shelter. Officer
Baxter took photographs of the marks on Marous’s ankles that corroborated her
statements about the abuse. He applied for an arrest warrant for [Petitioner] and a
search warrant for his home.
When officers executed the search warrant, they found a bag in the closet of the
master bedroom that held various sex toys: (1) dildos; (2) a penis sheath; (3) a fake
vagina; (4) a penis pump; (5) vibrators; and (6) a nylon restraining device. Officers
also seized a laptop computer, along with a few flash drives.
FBI computer forensic expert Jesse Basham testified he reviewed the flash drives and
found more than 150 pornographic movies, mostly involving anal sex and bondage.
At trial, a copy of all the electronic files Basham reviewed was admitted. Still shots
from the movies were also admitted over [Petitioner’s] objection.
At trial, [Petitioner] called a medical doctor who had reviewed Marous’s medical
records and explained that her records did not reflect the kind of trauma to the anal
cavity he would expect to see if someone had forced a large dildo into her anal cavity
without lubricant or on a regular basis. [Petitioner] also called an immigration
attorney, who explained that a non-citizen spouse could gain legal status in the
United States through a claim that her citizen-spouse was abusing her.
[Petitioner] also testified on his own behalf and claimed that it was Marous, not he,
who had the huge sexual appetite. He alleged the sex toys were hers and she brought
them with her from Iran. He claimed to have never used the objects, though he
admitted to watching an anal sex pornographic movie that he claimed Marous had
sent him. He also contended it was Marous who downloaded the pornographic
movies of women in dog chains and women being anally raped.
Although Marous had moved out by the time the police executed the search warrant
and found the flash drives, [Petitioner] testified it was possible that Marous or her
son could have planted the drive in his computer bag. Officer Baxter, however,
testified Marous s house key no longer worked by the time the police executed the
search warrant.
Shakouri v. State,No. 05-09-00158-CR,2010 WL 3386598, at * 1-3 (Tex. App. - Forth Worth 2010).

5

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 6 of 34 PagelD #: 3705

FEDERAL HABEAS CORPUS PROCEEDINGS
The role of federal courts in reviewing habeas corpus petitions by prisoners in state custody
is exceedingly narrow. A person seeking federal habeas corpus review must assert a violation of a
federal constitutional right. Lowery v. Collins, 988 F.2d 1354,1367 (5th Cir. 1993). Federal habeas
corpus relief will not issue to correct errors of state constitutional, statutory, or procedural law,
unless a federal issue is also present. Estelle v. McGuire, 502 U.S. 62, 67-68 (1991); West v.
Johnson, 92 F.3d 1385,1404 (5th Cir. 1996). When reviewing state proceedings, a federal court does
not sit as a super state appellate court. Dillard v. Blackburn, 780 F.2d 509,513 (5th Cir. 1986).
Federal habeas corpus relief for state prisoners has been further limited by the Antiterrorism
and Effective Death Penalty Act of 1996 (“AEDPA”). The provisions of Section 2254(d) provide
that an application for a writ of habeas corpus “shall not be granted with respect to any claim that
was adjudicated on the merits in state court proceedings unless the adjudication of the
claim: (1) resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court of the United States;
or (2) resulted in a decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.” Wiliams v. Taylor, 529 U.S. 362, 402-03
(2000); see Childress v. Johnson, 103 F.3d 1221, 1224-25 (5th Cir. 1997). “As a condition for
obtaining habeas corpus from a federal court, a state prisoner must show that the state court’s ruling
on the claim being presented in federal court was so lacking in justification that there was an error
well understood and comprehended in existing law beyond any possibility for fairminded
disagreement ” Harrington v. Richter, 562 U.S. 86,105 (2011). A petitioner must show that there
was no reasonable basis for the state court to deny relief. Id., 562 U.S. at 98.

6

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 7 of 34 PagelD #: 3706

A federal district court must be deferential to state court findings supported by the record.
See Pondexter v. Dretke, 346 F.3d 142,149-152 (5th Cir. 2003). The AEDPA has modified a federal
habeas court’s role in reviewing state prisoner applications to prevent federal habeas “retrials” and
to ensure that state court convictions are given effect to the extent possible under law. Beel v. Cone,
535 U.S. 685,693 (2002); see Williams, 529 U.S. at 404. A state application that is denied without
written order by the Texas Court of Criminal Appeals is an adjudication on the merits. Singleton v.
Johnson, 178 F.3d 381,384 (5th Cir. 1999);Ex parte Torres,943 S.W.2d 469,472 (Tex.Crim.App.
1997) (holding a “denial” signifies an adjudication on the merits while a “dismissal” means the claim
was declined on grounds other than the merits).
A state court’s factual findings “shall be presumed to be correct” unless petitioner carries “the
burden of rebutting the presumption of correctness by clear and convincing evidence.” 28 U.S.C.
§ 2254(e)(1). This presumption of correctness also applies to unarticulated findings that are
necessary to the state court’s conclusions of mixed law and fact. Valdez v. Cockrell, 274 F.3d 941,
948 n. 11 (5th Cir. 2001).
Also, the evidence upon which a petitioner would challenge a state court fact finding must
have been presented to the state court, except for the narrow exceptions contained in § 2254(e)(2).
Because a federal habeas court is prohibited from granting relief unless a decision was based on “an
unreasonable determination of the facts in light of the evidence presented in the state court
proceeding, ‘it follows that demonstrating the incorrectness of a state court fact finding based upon
evidence not presented to the state court would not be helpful to a federal habeas petitioner.’” 28
U.S.C. § 2254(d); Cullen v. Pinholster, 563 U.S. 170 (2011).

7

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 8 of 34 PagelD #: 3707

INEFFECTIVE ASSISTANCE OF COUNSEL AT TRIAL
A.

Legal Standard
Petitioner claims trial counsel was ineffective in numerous respects. A petitioner who seeks

to overturn his conviction on the grounds of ineffective assistance of counsel must prove entitlement
to relief by a preponderance of the evidence. James v. Cain, 56 F.3d 662,667 (5th Cir. 1995). To
succeed on a claim of ineffective assistance of counsel, a petitioner must show “counsel’s
representation fell below an objective standard ofreasonableness,” with reasonableness judged under
professional norms prevailing atthe time counsel rendered assistance. Strickland v. Washington,466
U.S. 668, 688 (1984). This requires the reviewing court to give great deference to counsel’s
performance, strongly presuming counsel exercised reasonable professional judgment. Id. at 688 690. The right to counsel does not require errorless counsel; instead, a criminal defendant is entitled
to reasonably effective assistance. Boyd v. Estelle,661 F.2d 388,389 (5th Cir. 1981); see also Rubio
v. Estelle, 689 F.2d 533, 535 (5th Cir. 1982); Murray v. Maggio, 736 F.2d 279 (5th Cir. 1984).
Additionally, a petitioner “must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome.” Strickland, 466 U.S.
at 694. Petitioner must “affirmatively prove,” not just allege, prejudice. Id. at 693. If petitioner fails
to prove the prejudice component, the court need not address the question of counsel’s performance.
Id. at 697.
B.

Failure to File Motion
Petitioner claims counsel was ineffective for failing to file a motion to suppress evidence

gathered from a computer and flash drive seized by the police without probable cause (Dkt. #1, p.6).
8

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 9 of 34 PagelD #: 3708

A determination of ineffectiveness “depends on whether either a suppression motion or an
objection would have been granted or sustained had it been made.” United States v. Oakley, 827 F.2d
1023, 1025 (5th Cir. 1987). On habeas review, federal courts do not second-guess an attorney’s
decision through the distorting lens of hindsight; rather, the court presumes counsel’s conduct falls
within the wide range of reasonable assistance and, under the circumstances, the challenged action
might be considered sound trial strategy. Strickland, 466 U.S. at 689.
Petitioner fails to provide evidence from the record to demonstrate the search warrant relied
on to seize the computer and flash drive from his home was not based on probable cause. Petitioner
simply makes a bald claim that the affidavit in support of the warrant “contained no asserted facts
to support probable cause to believe that any computer would be found in the house nor did it
contain any facts to establish probable cause to believe that any of Petitioner’s computer equipment
was evidence of the offense, an instrumentality of crime, contraband, or in any other manner subject
to seizure.” (Dkt. #1 -1 at 2). Conclusory claims are insufficient to entitle a habeas corpus petitioner
to relief. United States v. Woods, 870 F.2d. 285,287-288; Schlang v.Heard, 691 F.2d 796,799 (5th
Cir. 1982); Yohey v. Collins, 985 F.2d 222,224-25 (5th Cir. 1993).
Furthermore, the affidavit in support of the search warrant alleged Petitioner had sodomized
and sexually assaulted the victim with various objects. (Dkt. #21-13, p. 19-22). The victim attested
Petitioner had threatened her with bodily harm and had threatened to send to the victim’s son an
email with “uncensored pictures” ofthe victim (Id. atp. 19). The victim additionally stated Petitioner
had taken photographs of her during and after the assaults. (Id. at p. 20). The search warrant
authorized police to seize various sex toys and restraints; various computer equipment; the electronic
contents of external and internal computer drives; and cameras and video equipment, and
9

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 10 of 34 PagelD #: 3709

photographs. (Id. at 18-27.) Texas law permits magistrates to issue a search warrant upon finding
“probable cause that a particular item will be found in a particular locationRodriguez v. State, 232
S .W. 3d 55,60 (Tex. Crim. App. 2007). Counsel was not ineffective for not objecting to, or moving
to suppress evidence gathered pursuant to the search warrant. See Garland v. Maggio, 717 F.2d 199,
204-06 (5th Cir. 1983) (stating counsel is not ineffective for failing to file frivolous a motion to
suppress evidence obtained through a search warrant); see also Green v. Johnson, 160 F.3d 1029,
1037 (5th Cir. 1998) (stating failure to make a frivolous objection does not demonstrate ineffective
assistance of counsel).
Even if a basis for the objection exists, an attorney may render effective assistance despite
a failure to object when the failure is a matter of trial strategy. See Burnett v. Collins, 982 F.2d 922,
930 (5th Cir. 1993) (noting a failure to object may be a matter of trial strategy to which courts will
not second guess counsel). Petitioner simply states, without citing support from the record that,
“[tjrial counsel’s failure to move to suppress the warrant is inconceivable. There was, and could be,
no strategic purpose for allowing the highly prejudicial computer materials to come in without
objection.” Dkt. 1-1 at 2. In counsel’s affidavit to the habeas court, counsel stated the following:
In completely rejecting [a consent defense], [Petitioner] informed me that his religion
rejected this behavior and he insisted on going to trial with the conspiracy theory.
The second major problem we faced was to keep [Petitioner] off of the witness stand,
if possible. [Petitioner] had testified a number of times in his divorce case and in all
occasions he came off as a nasty, abrasive, overbearing and insensitive individual
who had little or no respect for women. [Petitioner] also rejected this approach.
In my opinion the State over played their hand. As time passed the story seem to
grow like topsy with every new revision, the story seemed to change for the worse.
[Petitioner] agreed that if we could make the story sound so wild and fan[t]a[s]tic no
one would believe the story, and we could poke holes in various places to raise
reasonable doubt. This strategy had worked for me in the past.

10

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 11 of 34 PagelD #: 3710

[Petitioner] is correct to assert that I failed to file a Motion to Suppress evidence in
this case. [Petitioner’s] position was this evidence was planted by either the
Complainant, her teenage son or the police. Some of the worst images were kept
from the jury, by agreement with the State. [Petitioner] seems to overlook the fact
that the victim also lived in the same house as [Petitioner], although she at one time
said she was at the women shelter, and she had told the police about the computer
and the contents. I seriously doubted if the Judge would grant a Motion to Suppress.
More importantly, this does sound another embellishment of the second wife’s
outlandish claims. The record would reflect we called a considerable number of well
dressed, sophisticated, professional people who knew [Petitioner] and who testified
[Petitioner] never did anything, at work or socially, that would indicate he was
incline to pornography or abuse of women as pointed out by applicant. His former
wife also testified during her lengthy marriage she never saw any pornography in the
possession of [Petitioner] or engaged in deviant behavior with him.
In addition the Defense produced by video tape deposition the testimony of the
complaint’s neighbor in Tehren, Iran, that the victim possessed a dildo of the same
description as the one seized in the search, as hers prior to her marriage to
[Petitioner]....
(Dkt. #22-20 at 139-141). Petitioner fails to demonstrate counsel’s decision not to file a motion to
suppress was not reasoned trial strategy. Burnett, 982 F.2d at 930.
Furthermore, the habeas court made the following findings and conclusions:
1. Applicant was represented at trial by Bill Burdock.

3. Burdock previously represented Applicant in a family violence matter and a
divorce in Tarrant County. Burdock also represented Applicant in his divorce from
the victim in this case. Burdock Affidavit at 1.

5. Applicant claimed Burdock was ineffective for failing to file a motion to suppress
a computer and flash drives in Ground One (A). Application at 6; Memorandum in
Support at 3-7.
6. The search warrant, admitted at trial as State’s Exhibit 1, was issued by visiting
judge James Fry in response to a five-page affidavit by a detective. The affidavit
11

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 12 of 34 PagelD #: 3711

specifically requests authority to search and seize computers and computer media,
and contains information that Applicant sent threatening emails with attached
pictures to the victim’s son. The affidavit also mentions information about the son’s
computer being taken by Applicant. Finally, the affidavit notes that the victim and
her son lived with Applicant in the home that was the subject of the search warrant.
7. Judge Fry could reasonably infer that Applicant possessed a computer and
associated media in his home that could have sent the email and/or contained the
photos attached to the email.
8. Trial counsel did not believe that the trial court would grant amotion to suppress.
Burdock affidavit at 2.
9. Counsel’s Strategy was to argue the victim’s claims were unbelievable because
they changed for the worse as the case developed. Although counsel suggested a
consent defense, Applicant rejected that approach. Burdock Affidavit at 1.
10. Applicant maintained at trial that the victim planted evidence on his computer
and the flash drive and that her outcries were the result of a conspiracy against him.
Burdock Affidavit at 1-2.

12. Trial counsel noted in his affidavit that he called multiple witnesses to testify that
Applicant was not inclined to abuse women, view pornography, or engage in deviant
behavior. Burdock Affidavit at 2.
13. Applicant cites no fact-specific authority supporting his claim that the warrant
affidavit did not contain sufficient facts to allow a finding of probable cause to search
the computer and flash drive.
14. Applicant has adduced no evidence that trial counsel’s strategic decision to
forego challenging the warrant and instead act to prove Applicant did not commit the
acts alleged against him was unreasonable.

23. Counsel’s trial strategy was to make the victim’s account “seem so wild and
fantastic” that no one would believe it. Affidavit of Burdock at 2.

12

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 13 of 34 PagelD #: 3712

41. Applicant has failed to prove by a preponderance of the evidence that the actions
challenged in Ground One were not sound trial strategy based upon reasonable
investigation in the case.
42. Applicant has failed to prove by a preponderance of the evidence that trial
counsel was deficient.
43. Applicant has failed to prove by a preponderance of the evidence that he was
prejudiced by counsel’s representation.
(Dkt. #22-21 at 72-74; 76; 79).
Petitioner fails to demonstrate the state court decision was contrary to, or involved an
unreasonable application of, clearly established federal law, or was based on an unreasonable
determination of facts. Williams, 529 U .S. at 402-03 (2000).

C.

Failure to Make Specific Objections
Next, Petitioner claims counsel was ineffective for failing to properly object to the admission

of certain pornographic movies and photos into evidence (Dkt. #1 at 6; #1-1 at 4). Failure to object
when the failure is a matter of trial strategy is not ineffective. See Burnett, 982 F.2d at 930.
Counsel stated in his affidavit, “I thought any pornographic pictures were not relevant to the
issue being tried. However, the more disturbing the pictures, if they were put into evidence, was just
another example of an embellishment of the facts by the State. No one connected the pictures to
[Petitioner], except to say they were found near his property.” (Dkt. #22-20 at 140-41). Again,
Petitioner fails to demonstrate counsel’s decision not to object was not reasoned trial strategy. See
Burnett, 982 F.2d at 930.
Additionally, Petitioner alleges, but fails to “affirmatively prove” prejudice regarding this
claim. Strickland, 466 U.S. at 693. Petitioner simply alleges an appropriate objection would have
allowed Petitioner to request a limiting instruction as to the material, and would have preserved the
13

Case 4:15-cv-00447-ALM-CAN Document 31 Fifed 08/02/18 Page 14 of 34 PagelD #: 3713

issue for direct appeal (Dkt. #1-1 at 5). Petitioner does not, however, demonstrate a reasonable
probability that, but for counsel’s alleged failure to properly object, the result of the proceeding
would have been different. Id. at 694.
Furthermore, the state habeas court made the following findings:
15. In Ground One (B), Applicant claims counsel was ineffective for failing to object
to evidence of pornography pursuant to Rule of Evidence 404(b).
16. At trial and in this proceeding, Applicant claimed that the victim was the sexual
aggressor and that the victim owned sexual devices that were used in the assaults. 7
RR 73; Application Exhibit B 5 16; Application Exhibit C; Supplemental
Application at Exhibit A 5 9.
17; The sexual images actually admitted into evidence at trial corroborated the
victim’s account of the assaults and demonstrated that Applicant, not the victim,
owned the items in question. Thus, the sexual images were admissible under Rule
404(b).
18. Trial counsel chose not to request a limiting instruction because he did not want
to highlight the evidence in question. Burdock Affidavit at 3. Counsel also believed
he could better counter this evidence by arguing that the victim was embellishing and
had no injuries consistent with her claims. Burdock Affidavit at 3.
19. Applicant has adduced no evidence to show that counsel’s strategic decisions
regarding this evidence were unreasonable.

41. Applicant has failed to prove by a preponderance of the evidence that the actions
challenged in Ground One were not sound trial strategy based upon reasonable
investigation in the case.
42. Applicant has failed to prove by a preponderance of the evidence that trial
counsel was deficient.
43. Applicant has failed to prove by a preponderance of the evidence that he was
prejudiced by counsel’s representation.

14

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 15 of 34 PagelD #: 3714

(Dkt. 22-21 at 75; 79). Petitioner fails to demonstrate the state court decision was improper.
See Williams, 529 U.S. at 402-03 (2000).
D.

Failure to Object at Voir Dire
Petitioner also claims counsel was ineffective for failing to object to improper questioning

by the prosecution at voir dire. Petitioner specifically claims counsel failed to object when the
prosecution elicited “unsworn and unqualified opinions [at voir dire] regarding effects of long-term
abuse, battered women’s syndrome, and forensic testing.” (Dkt. #1 at 7). As previously stated , an
attorney may render effective assistance despite a failure to object when the failure is a matter of trial
strategy. See Burnett, 982 F.2d at 930.
In his affidavit, counsel stated, “It is true that I could object to many statements made by the
Prosecutor. I made a number of objections, which were sustained by the Court. The prosecutor was
very personable young man who was liked by the jury. Whatever the prosecutor said to the jury
would not hurt us as much as the complainant’s testimony. It is always my theory that you can often
object too many times and the jury panel gets angry at you. Therefore unless the statements would
hurt us, I did not object.” (Dkt. #22-20 at 143). Petitioner fails to demonstrate counsel’s decision not
to object at voir dire was not reasoned trial strategy. See Burnett, 982 F.2d at 930. He fails to
demonstrate counsel was ineffective. Strickland, 466 U.S. at 688.
Furthermore, in addressing the issue, the state habeas court stated:
34. In Ground One(F) Applicant complains that trial counsel was ineffective for
failing to object during voir dire. Application at 6; Memorandum at 23-25.
35. Trial counsel agreed that he could have objected to some portions of the State’s
voir dire, but stated that objecting too often can make a jury angry at a party.
Affidavit of Burdock at 5.

15

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 16 of 34 PagelD #: 3715

36. Trial counsel objected when he thought the statements would hurt the defense.
Affidavit of Burdock at 5.
37. Trial counsel discussed objections during voir dire and question the venire
whether they thought lawyers who objected were hiding something. 2 RR 70-72.
38. Trial counsel objected to a portion of the prosecutor’s voir dire but was overruled
by the trial judge. 2 RR 44.
39. Applicant has cited no fact specific authority demonstrating that the prosecutor’s
voir dire questions were objectionable.
40. Applicant has adduced no evidence demonstrating that counsel’s strategic choices
not to object during voir dire were unreasonable.
41. Applicant has failed to prove by a preponderance of the evidence that the actions
challenged in Ground One were not sound trial strategy based upon reasonable
investigation in the case.
42. Applicant has failed to prove by a preponderance of the evidence that trial
counsel was deficient.
43. Applicant has failed to prove by a preponderance of the evidence that he was
prejudiced by counsel’s representation.
44. Applicant’s Ground 1 should be denied.
(Dkt. 22-21 at 78-79). Petitioner fails to demonstrate the state court decision was improper. See
Williams, 529 U.S. at 402-03 (2000).
E.

Failure to Request Jury Instruction on a Lesser-Included Offense
Petitioner claims his counsel was ineffective for not requesting an instruction on the lesser-

included offense of sexual assault (Dkt. #1 at 6). Petitioner argues the decision by the state habeas
court was based on an unreasonable determination of the facts in light of the evidence presented and
that there is no evidence that counsel’s decision not to request the lesser-included instruction was
a “strategic decision.” (Dkt. #24 at 13).

16

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 17 of 34 PagelD #: 3716

A decision not to request an instruction on a lesser-included offense may be the result of
reasonable trial strategy. United States v. Gonzales, 189 F.3d 469, n. 1 (5th Cir.1999). “Generally,
counsel’s strategic decisions are afforded deference so long as they are based on counsel’s
professional judgment.” Escamilla v. Stephens, 749 F.3d 380,391 (5th Cir. 2014). The Fifth Circuit
has determined that forgoing a lesser-included offense instruction, in cases such as this, is not
ineffective assistance. See e.g. Druery v. Thaler, 647 F.3d 535, 539-540 (5th Cir. 2014) (finding
counsel was not ineffective for refusing to request a lesser-included instruction when counsel’s valid
strategy was to “obtain a full acquittal.”).1
In his affidavit, counsel stated, “[Petitioner] would not admit [the offense] occurred and
neither did anyone else. It was either aggravated sexual assault or not guilty. To the defense, it was
just one in another embellishment of the facts.” (Dkt. #22-20 at 142). Petitioner fails to demonstrate
counsel s decision not to request a jury instruction of lesser-included offense was not reasoned trial
strategy. See Burnett, 982 F.2d at 930. Furthermore, Petitioner provides no evidence to demonstrate
that had the jury been given the instruction, it would have chosen to convict him of the lesserincluded offense; thus, Petitioner fails to “affirmatively prove” prejudice. Strickland, 466 U.S. at
693.
The state habeas court addressed the issue stating:
24. Applicant claims in Ground One(D) that trial counsel was ineffective for failing
to request an instruction on the lesser included offense of sexual assault. Application
at 6; Memorandum at 15-21.

The Fifth Circuit additionally found that refusing a lesser-included instruction did not constitute
ineffective assistance even though counsel “may have been mistaken in part of his legal reasoning” because “the
ultimate strategic choice was reasonable.” Druery, 647 F.3d at 540.

17

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 18 of 34 PagelD #: 3717

25. Trial counsel stated in his affidavit that Applicant categorically denied that any
sexual assault occurred. Affidavit of Burdock at 1,4.
26. Applicant refused to admit that the behavior in question occurred because it was
contrary to his religion. Affidavit of Burdock at 1.
27. Applicant’s denial that any sexual assault occurred did not raise the lesser
included offense of sexual assault.
28. Applicant dictated an all or nothing defense. Affidavit of Burdock at 4.
29. Applicant has offered no evidence or fact specific authority that counsel’s
strategic decision was unreasonable or that no reasonable attorney could have made,
the same decision.
(Dkt. 22-21 at 76-77). As stated above, counsel attested that Petitioner “testified no type of rape ever
occurred. (Dkt. #22-20 at 142) and that Petitioner “insisted on going to trial with [a] conspiracy
theory.” (Id. at 139). Counsel stated Petitioner “completely rejected” the defense strategy that the
sexual activity was consensual to a point until the victim wished to discontinue the practice. (Id. at
139). Counsel determined “[i]t was either aggravated sexual assault or not guilty.” (Id. at 142).
Indeed, Petitioner testified in numerous instances that he did not sexually assault the victim at all,
but that she was actually the sexual aggressor (See Dkt. #20-5 at 34-36; # 20-7 at 1,9-15; Dkt. #20-8
at 16-20,27-28), and that the charges against him were a conspiracy by the victim (Dkt. #20-8 at 11 16, Dkt. #20-7 at 21-22,27-28). Considering the evidence in the record, Counsel’s strategy to get
a full acquittal for Petitioner was not unreasonable. Petitioner fails to demonstrate the state court
decision was contrary to, or involved an unreasonable application of, clearly established federal law,
or was based on an unreasonable determination of facts. Williams, 529 U.S. at 402-03 (2000).

18

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 19 of 34 Page!D #: 3718

F.

Failure to Object or Request a Limiting Instruction
Petitioner claims counsel was ineffective for “not attempting] to limit admission of evidence

that Petitioner threatened to kill the complainant on November 28,2006, which was an extraneous
offense but which the State offered to prove an element of the charged offense.” (Dkt. #1-1 at 11).
However, Petitioner fails to “affirmatively prove/’prejudice. Strickland, 466 U.S. at 693. He states
only that “[without an instruction limiting the use of this evidence, [it] could, conceivably, be seen
as showing the violence toward [the victim] and the aggravation element of the offense.” (Dkt. 1-1,
at 12). Petitioner’s vague claim is insufficient to demonstrate counsel provided ineffective assistance.
Strickland, 466 U.S. at 688.
Additionally, counsel stated in his affidavit:
[Complainant’s] conduct during the marriage did not in any way act like an abused
woman. I certainly did not want a limiting instruction... Rather than draw additional
attention to this material by having it in the charge, the decision was made to add this
to our list in argument about overkill and embellishment of the story promulgated by
the witness.

The limiting instruction argument under “B” above is incorporated herein. This is
one of the wild allegations of the allegations of the complaints; which were elicited
at about the same time complainant testified of hair pulling. We countered this
statement by showing the jury many family photos, none of which reflected any loss
of complainant’s hair and all of which reflected the witness enjoying the opportunity
to visit her in laws.
(Dkt. 22-20 at 141-142). Petitioner fails to provide any evidence to demonstrate counsel’s decision
not to object to, or request a limiting instruction regarding the evidence that Petitioner threatened to
kill his wife, was not reasoned trial strategy. See Burnett, 982 F.2d at 930.

19

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 20 of 34 PagelD #: 3719

Furthermore, the state habeas court made the following findings:
30. In Ground One(E), Applicant claims trial counsel was ineffective for failing to
request a limiting instruction regarding a threat by Applicant to kill the victim.
Application at 6; Memorandum at 21-22.
31. Trial counsel believed a limiting instruction would simply draw additional
attention to the evidence so he did not request a limiting instruction. Affidavit of
Burdock at 4,3.
32. Otherwise, counsel characterized the threat as simply a “wild allegation” of the
victim similar to others that he attempted to rebut with medical, photographic, and
character testimony. Affidavit of Burdock at 4.
33. Applicant has adduced no evidence that counsel ’ s strategic decision in this regard
was unreasonable or that no reasonable attorney would have made the same choice.
(Dkt. 22-21 at 77). Petitioner fails to demonstrate the state court decision was improper. See
Williams, 529 U.S. at 402-03 (2000).

G.

Failure to Force Prosecution to State the Specific Offense for Conviction
Petitioner claims counsel was ineffective for “failing] to demand that the State make an

election as to the specific offense upon which it would rely for conviction.” (Dkt. #1-1 at 7).
Counsel stated in his affidavit, “There was no belief on counsel’s part that evidence of the events
testified by the victim would get before jury by anyone of several ways, [it] would be to our
advantage to argue the whole story was too exaggerated and greatly embellished to be believable.”
(Dkt. # 22-20 at 142). Petitioner fails to provide any evidence to show counsel’s decision not to
force the State to specify the offense it would rely on, and instead to attack the State’s entire story
as “too exaggerated” to be believed, was not reasoned trial strategy. See Pape v. Thaler, 645 F.3d
281,290-91 (5th Cir. 2014) (stating a counsel’s reasoned strategy to “let everything in” at trial is not
ineffective assistance of counsel); see also Burnett, 982 F.2d at 930.

20

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 21 of 34 Page ID #: 3720

The state habeas court stated:
20. Applicant claims in Ground One(C) that his trial counsel was ineffective for
failing to request an election by the State. Application at 6; Memorandum at 13-15.
21. Whether to request an election by the State is a matter of trial strategy.
22. Counsel stated in his affidavit that evidence of the other assaults committed by
Applicant against the victim would have been admitted in one of several ways.
Affidavit of Burdock at 3-4.
23. Counsel s trial strategy was to make the victim’s account “seem so wild and
fantastic” that no one would believe it. Affidavit of Burdock at 2.

41. Applicant has failed to prove by a preponderance of the evidence that the actions
challenged in Ground One were not sound trial strategy based upon reasonable
investigation in the case.
42. Applicant has failed to prove by a preponderance of the evidence that trial
counsel was deficient.
43. Applicant has failed to prove by a preponderance of the evidence that he was
prejudiced by counsel’s representation.
(Dkt 22-21 pgs. 76; 79). Petitioner fails to demonstrate the state court decision was improper. See
Wiliams, 529 U.S. at 402-03 (2000).
In summary, in each claim of ineffective assistance of counsel, Petitioner fails to demonstrate
the state habeas court s decision was contrary to, or involved an unreasonable application of, clearly
established federal law, as determined by the Supreme Court of the United States; or resulted in a
decision that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. See Wiliams, 529 U.S. at 402-03; Childress, 103 F.3d at
1224-25. Petitioner fails to show there was no reasonable basis for the state court to deny relief.
Richter, 562 U.S. at 98.

21

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 22 of 34 PagelD #: 3721

DUE PROCESS VIOLATIONS
Petitioner claims he was denied due process because the prosecution introduced evidence that
had been planted and subsequently discovered pursuant to a search warrant, the prosecution used
perjured testimony, and the prosecution failed to disclose evidence favorable to Petitioner.
A.

State Planted Evidence
Petitioner specifically alleges the State, the complainant, or the complainant’s son planted

“sex toys [in his home]... with the foreknowledge of the State ” which were later discovered and
used against Petitioner at trial (Dkt. #1 at 6). As evidence, Petitioner states that in prison he met an
inmate named Gale Corbett Hutchinson (Hutchinson) who claimed to have information regarding
Petitioner’s case. Petitioner did not submit an affidavit to the state habeas court from Hutchinson.
Instead, Petitioner submitted statements from two other inmates (David Hernandez and Walter
Comet). Mr. Hernandez’s statement states he overheard Hutchinson outline a conspiracy against
Petitioner by the victim, her boyfriend, a friend of the victim (Deanna DeYoung), a Collin County
District Attorney, an investigator, members of the Prosper, Texas police force, and a pornography
movie actor (Dkt. #1-3). Hernandez claims he heard Hutchinson tell Petitioner these people were all
involved in an elaborate scheme that involved “placing] evidence, some sex toys, rope, and a flash
drive in [Petitioner’s] house, in Prosper, Texas, so a search warrant could be obtained and
[Petitioner] could be arrested.” (Id.). Similarly, Comet’s statement relates information allegedly told
to him by an unnamed third party regarding an alleged plan by the victim and her friend to plant
incriminating evidence in Petitioner’s home and car (Dkt. #1-4).

22

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 23 of 34 PagelD #: 3722

In response, the State submitted affidavits from the victim,Deanna DeYoung, complainant’s
son, a Collin County assistant district attorney, the trial prosecutor, and a detective with the Prosper
Police Department. Each affiant denied the allegations made by Hernandez and Comet. The victim,
victim’s son, DeYoung, and the prosecutor specifically denied planting evidence, as alleged by
Petitioner. This issue was presented to the state habeas court, which stated:
45. In Ground 2, Applicant claims that inculpatory evidence was planted by agents
of the State.
46. Applicant’s claims in Ground 2 are based on the affidavits of two inmates, David
Lightfoot Hernandez and Walter Bruce Comet. Applicant’s writ exhibits B and C.
47. The Hernandez and Comet affidavits, in turn, relate statements purported to be
from a third inmate, Gale Corbett Hutchinson. Applicant’s writ exhibits B and C.
48. Applicant did not submit an affidavit from Hutchinson.
49. The victim A.M., her son S.R., the woman who helped them move from
Applicant’s home, D.T., the lead prosecutor, and another prosecutor mentioned in
the Hernandez and Comet affidavits, have all filed affidavits in this case. State ’ s Writ
Exhibits 1,2,3,4, and 5.
50. A.M.’s affidavit addresses the claims in the Hernandez and Comet affidavits and
denies them.
51. A.M. denied knowing Hutchinson.
52. AM. specifically denied conspiring with D.T., whom she knew as D. D., to plant
evidence, and indeed she stated that she could not communicate with D.T. at the time
of the alleged conspiracy because A.M. could not speak English and D.T. could not
speak Farsi.
53. A.M. denied any improper relationship with lead prosecutor C.H.
54. A.M. s statements are consistent with the trial record and consistent with the
affidavits of D.T. and the prosecutors, Ci\ and C.H.
55. AM. was previously determined to be credible by the trial jury.

23

\

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 24 of 34 PagelD #: 3723

56. A.M.’s statements in her affidavit are credible.
57. D.T.’s affidavit addresses the claims in the Hernandez and Comet affidavits and
denies them.
58. D.T. denied conspiring with A.M. to plant evidence and noted that she and AM.
did not share a common language at the time and could only speak with the
assistance of a translator.
59. D.T. recognized Hutchinson as someone who lived in her neighborhood, but she
denied all allegations attributed to Hutchinson by Hernandez and Comet.
60. D.T.’s statements are consistent with the statements of A.M. and C.H. and are
credible.
61. S.R., AJVl.’s son, gave an affidavit affirming that his trial testimony was true and
correct.
62.S.R. denied placing a flash drive or any other item into Applicant * s computer bag.
63. The jury’s verdict at trial is consistent with the jury determining him to be
credible.
64. S.R.’s statements are credible.
65. C.F., an assistant district attorney in Collin County, filed an affidavit denying the
statements in the Hernandez and Cortez affidavits.
66. C.F. investigated Hutchinson for multiple fraud-like offenses.
67. Hutchinson ultimately pleaded guilty to five felony counts and was sentenced to
the penitentiary.
68. CP. specifically denied Hutchinson’s claims of an improper relationship with a
witness.
69. CP. opined that Hutchinson was not a credible witness.
70. C.F. is an officer of the Court and well known to the Court.
71. C.F.*s statements are credible.

24

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 25 of 34 PagelD #: 3724

72. C.H., the lead prosecutor in the underlying case, filed an affidavit denying the
allegations in the Hernandez and Cornet affidavits.
73. C.H. could only communicate with AM. with the assistance of a translator or
through her son, S.R.
74. C.H. was unaware of any information showing that Hutchinson worked as an
informant for the DA’s office.
75. A.M. never asked C.H. to drop the case.
76. C.H. denied any improper relationship with A.M.
77. C. H. is an officer of the Court and is well known to the Court.
78. C. H.’s statements are credible.
79. Detective Sam Owens of the Prosper Police Department filed an affidavit in this
case. State’s Writ Exhibit 6.
80. Detective Owens reviewed the records of the Prosper Police Department and
found no record that Hutchinson served as a confidential informant in the underlying
case.
81. Hernandez and Comet are convicted felons.
82. Hutchinson is a convicted felon.
83. Hutchinson was investigated and prosecuted by CP.
84. Applicant testified at trial that A.M. brought the sex-toys with her from Iran that
he now claims were obtained after the fact and planted in his home. 7 RR 73-75 79
158-59.
* ’
85. In the statements attributed to Hutchinson in Hernandez’s affidavit, Hutchinson
claims he met with D.T. and A.M. in December 2007 with regard to planting
evidence. In fact, the offense was reported in December 2006 and Applicant was
indicted in March of 2007.
86. Hernandez is not credible.
87. Comet is not credible.

25

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 26 of 34 PagelD #: 3725

88. Hutchinson is not credible.
89. Applicant has failed to prove by a preponderance of the evidence that any
evidence was planted by anyone in this case.
90. Applicant’s Ground 2 should be denied.
(Dkt. 22-21 at 79-83).
The state habeas court found Hernandez, Comet, and Hutchinson not credible, and denied
the claim. Credibility determinations by state habeas courts are given deference. Coleman v.
Quarterman, 456 F.3d 537 (5th Cir. 2006). Petitioner now simply re-asserts the same argument in
his § 2254 petition that he made to the state habeas court. However, Petitioner fails to show that the
state court proceedings resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly-established federal law, as determined by the Supreme Court of the United
States, or that the decision was based on an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding. Williams, 529 U.S. at 402-03; Childless, 103 F.3d
atl224-25. Petitioner fails to show there was no reasonable basis for the state court to deny relief.
Richter, 526 U.S. at 98.
B.

Perjured Testimony
Petitioner alleges the victim committed perjury while testifying against him (Dkt. #1 at 8).

In support, Petitioner submitted an affidavit from Mohammad Manteghinezhad, who stated he was
an interpreter for the prosecutor and victim (Dkt. #1-2). Manteghinezhad’s affidavit alleges the
victim told him she had lied to the prosecutor and at trial regarding key facts of the case (Id.).
Specifically, Manteghinezhad attests the victim lied to the trial court and prosecutor regarding
planting evidence incriminating Petitioner, details regarding the sexual assault by Petitioner, and an

26

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 27 of 34 PagelD #: 3726

extra-marital relationship with a man living in California (Id.). Even assuming the allegations in the
affidavit are true, Manteghinezhad makes no attestation that the victim told the prosecutor the
statements were false, nor that the prosecutor knew that victim’s statements were false. Petitioner
fails to demonstrate a due process violation. See Kinsel v. Cain, 647 F.3d 265, 272 n. 26 (5th Cir.
2011) (stating that “clearly established Supreme Court precedent demands proofthat the prosecution
made knowing use of perjured testimony.”) (emphasis added); Kutzner v. Cockrell, 303 F.3d 333,
337 (5th Cir. 2002) (“[D]ue process is not implicated by the prosecution’s introduction or allowance
of false or perjured testimony unless the prosecution actually knows or believes the testimony to be
false or peijured.”); see also Kutzner v. Johnson, 242 F.3d 605,609 (5th Cir. 2001).
Although Petitioner presents this issue as “newly available evidence,” he presented the same
issue and affidavit to the state habeas court. That court made the following findings and conclusions:
97. In his sole Supplemental Ground, Applicant claims that the State used false
testimony at trial. Supplemental Application at 6; Memorandum in Support of
Supplemental Application at 2-6.
98. Applicant’s Supplemental Ground is based on the affidavit of Mohammed
Manteghinezad. Supplemental Writ Exhibit A.
99. A.M. responded to Manteghinezad’s allegations in her affidavit.
100. AM. denied Manteghinezad’s allegations in detail.
101. AM. stated that, after trial, she rejected a romantic overture from
Manteghinezad.
102. C. H., the lead prosecutor, stated that Manteghinezad never communicated to
him that AM.’s statements were misrepresented or miscommunicated.

104. Manteghinezad’s affidavit does not state whether he prepared his affidavit
himself or whether he signed a pre-prepared affidavit.

27

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 28 of 34 PagelD #: 3727

105. Manteghinezad’s affidavit appears to have been prepared by another person
because it contains a blank for him to fill-in the last four digits of Ids social security
number.
106. Applicant’s supplemental writ application does not state who provided
Manteghinezad’s signed affidavit to writ counsel.
107. Manteghinezad’s statements are unsupported by other evidence.
108. The allegations in Manteghinezad’s [affidavit] were previously, generally raised
at trial and rejected by the jury.
109. Consistent with the Court’s findings as to Ground 2, the statements of A.M. and
C.H. are credible.
110. Manteghinezad’s statements are not credible.
111. Applicant has failed to prove by a preponderance of the evidence that the State
used false testimony at trial or that there is a reasonable likelihood that false
testimony affected the judgment of the jury.
112. Applicant’s Supplemental Ground should be denied.
(Dkt. 22-21 at 85-86).
Petitioner fails to show the state court proceedings resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly-established federal law, as determined by the
Supreme Court of the United States, or that the decision was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding. Williams, 529 U.S. at
402-03; Childless, 103 F.3d atl224-25. Petitioner fails to show there was no reasonable basis for the
state court to deny relief. Richter, 526 U.S. at 98. Although Petitioner claims the state habeas court
decision was based on an unreasonable determination of the facts in light of the evidence (Dkt. #24
at 21), he fails to present clear and convincing evidence in support of this allegation. See 28 U .S .C.
§ 2254(d)(2); 28 U.S.C.§ 2254(e)(1) (stating factual findings by state habeas court are presumed to

28

Case 4:15-CV-00447-ALM-CAN Document 31 Filed 08/02/18 Page 29 of 34 PagelD #: 3728

be correct and “the applicant shall have the burden of rebutting the presumption of correctness by
clear and convincing evidence.”). In fact, Petitioner concedes this theory was presented at
Petitioner’s trial. (Dkt. #24 at 22). Furthermore, Petitioner fails to meet his burden of demonstrating
the prosecution knowingly used perjured testimony. See Kinsel, 647 F.3d at 272. Therefore, this
claim must fail.
C.

Failure to Disclose Favorable Evidence
Finally, Petitioner alleges the police violated his due process rights when, upon arrest, the

police confiscated his cell phone and did not return it to either him or his attorney (Dkt. #1 at 8).
Petitioner claims the phone contains text messages favorable to his defense.
Petitioner does nothing more than make a conclusory claim. He does not direct the Court to
any evidence in the record to demonstrate the police confiscated his phone, or that the phone had
information favorable to his defense. Even assuming the police confiscated his phone, Petitioner fails
to demonstrate a reasonable probability that any information contained on the phone would have
changed the outcome ofhis proceeding. Petitioner’s argument is insufficient. See Derden v. McNeel,
938 F.2d 605,617 (5th Cir. 1991). Petitioner simply makes an unsupported assertion of a violation.
“Absent evidence in the record, a court cannot consider a habeas petitioner’s bald assertions on a
critical issue in his pro se petition (in state and federal court), unsupported and unsupportable by
anything else contained in the record, to be of probative evidentiary value.” Ross v. Estelle, 694 F.2d
1008,1011-12 (5th Cir. 1983) (citing Woodard v.Beto,447 F.2d 103,104 (5th Cir. 1971)); see also
Woods v. Cockrell, 307 F.3d 353, 357 (5th Cir. 2002) (issues that are inadequately briefed are
waived).

29

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 30 of 34 PagelD #: 3729

Moreover, the state habeas court considered and rejected this claim, ft stated:
91. In Ground 3 Applicant claims that the police seized his cell phone and never
returned it to him. Applicant claims his phone contained exculpatory evidence of an
extortion plot against him. Application at 8; Memorandum at 29-32.
92. Applicant adduced no evidence showing that law enforcement authorities retained
his cell phone.
93. The State attached records to its writ response showing that no cell phone was
seized during the search of Applicant’s home and that his cell phone was returned to
him after two pretrial arrests. State’s Writ Exhibits 7,8, and 9.
94. Applicant has failed to prove by a preponderance of the evidence that the State
suppressed favorable evidence in the form of his cell phone.
95. Applicant has failed to prove by a preponderance of the evidence that his cell
phone contained favorable evidence that was material to issues of his guilt or
punishment.
96. Applicant’s Ground 3 should be denied.
(Dkt. 22-21 at 84). In each due process claim, Petitioner fails to show the state court proceedings
resulted in a decision that was contrary to, or involved an unreasonable application of, clearlyestablished federal law, as determined by the Supreme Court of the United States, or that the decision
was based on an unreasonable determination of the facts in light of the evidence presented in the
State court proceeding. Williams, 529 U .S. at 402-03; Childless, 103 F.3d at1224-25. Petitioner fails
to show there was no reasonable basis for the state court to deny relief. Richter, 526 U.S. at 98.
ACTUAL INNOCENCE
Petitioner makes a general, unsupported claim that he is actually innocent (Dkt. #1 at 8). A
claim of actual innocence does not state an independent, substantive constitutional claim and is not
a basis for federal habeas corpus relief. Herrera v. Collins, 506 U.S. 390 (1993). Claims of actual
innocence are not cognizable on federal habeas review. United States v. Fields, 761 F.3d 443,479

30

Case 4:15-cv-00447*ALM-CAN Document 31 Fifed 08/02/18 Page 31 of 34 PagelD #: 3730

(5th Cir. 2014) (“ [Fifth Circuit] caselaw does not recognize freestanding actual innocence claims.”).
A claim of actual innocence may not be a basis for federal habeas corpus relief absent an
independent federal constitutional violation. Dowthitt v. Johnson, 230 F.3d 733,741 (5th Cir. 2000).
Petitioner has not shown an independent federal constitutional violation; thus his actual
innocence claim is not cognizable on federal habeas appeal.
CONCLUSION
In Petitioner’s ineffective assistance of counsel claims, Petitioner shows neither deficient
performance nor prejudice. Strickland, 466 U.S. at 694. Petitioner fails to rebut the presumption of
correctness owed to the trial court’s factual findings with clear and convincing evidence to the
contrary. Valdez, 274 F.3d at 947. Petitioner additionally fails to show the state planted evidence,
refused to turn over exculpatory evidence, or knowingly presented perjured evidence at trial. He fails
to demonstrate he was denied due process. Petitioner’s actual innocence claim is not cognizable on
federal habeas appeal. Finally, Petitioner fails to show the state court proceedings resulted in a
decision that was contrary to, or involved an unreasonable application of, clearly established federal
law, as determined by the Supreme Court of the United States, or that the decision was based on an
unreasonable determination of the facts in light of the evidence presented in the state court
proceeding. Williams, 529 U.S. at 402-03; Childress, 103 F.3d at 1224-25. He fails to show there
was no reasonable basis for the state court to deny relief. Richter, 562 U.S. at 98. Thus, Petitioner’s
habeas petition should be denied.

31

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 32 of 34 PagelD #: 3731

CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals from a final order in a habeas corpus
proceeding “unless a circuit justice or judge issues a certificate of appealability.” 2B U.S.C.
§2253(c)(l)(A). Although Petitioner has not yet filed a notice of appeal, it is respectfully
recommended the court, nonetheless, address whether Petitioner would be entitled to a certificate
of appealability. See Alexander v. Johnson, 211 F.3d 895,898 (5th Cir. 2000) (A district court may
sua sponte rule on a certificate of appealability because “the district court that denies a petitioner
relief is in the best position to determine whether the petitioner has made a substantial showing of
a denial of a constitutional right on the issues before the court. Further briefing and argument on the
very issues the court has just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme Court fully explained
the requirement associated with a “substantial showing of the denial of a constitutional right” in
Slack v. McDaniel, 529 U.S. 473,484 (2000). In cases where a district court rejected a petitioner’s
constitutional claims on the merits, “the petitioner must demonstrate that reasonable jurists would
find the district court’s assessment of the constitutional claims debatable or wrong.” Id.; Henry v.
Cockrell, 327 F.3d 429,431 (5th Cir. 2003). “When a district court denies a habeas petition on
procedural grounds without reaching the petitioner’s underlying constitutional claim, a [Certificate
of Appealability] should issue when the petitioner shows, at least, that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a constitutional right and that

32

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 33 of 34 PagelD #: 3732

jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.” Slack, 529 U.S. at 484.
It is respectfully recommended reasonable jurists could not debate the denial of Petitioner’s
§ 2254 petition, nor find the issues presented are adequate to deserve encouragement to proceed.
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003) (citing Slack, 529 U.S. at 484). Accordingly, it is
recommended the Court find Petitioner is not entitled to a certificate of appealability.
RECOMMENDATION
It is therefore recommended the petition be DENIED and DISMISSED with prejudice. It
is further recommended a certificate of appealability be DENIED.
Within fourteen (14) days after service of the magistrate judge’s report, any party must serve
and file specific written objections to the findings and recommendations of the magistrate judge.
28 U.S.C. § 636(b)(1)(C). To be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and specify the place
in the magistrate judge’s report and recommendation where the disputed determination is found. An
objection that merely incorporates by reference or refers to the briefing before the magistrate judge
is not specific.
Failure to file specific, written objections will bar the party from appealing the unobjected-to
factual findings and legal conclusions of the magistrate judge that are accepted by the district court,
except upon grounds of plain error, provided that the party has been served with notice that such
consequences will result from afailure to object. See Douglass v. United Servs. Auto. Ass’n,79 F.3d

33

Case 4:15-cv-00447-ALM-CAN Document 31 Filed 08/02/18 Page 34 of 34 PagelD #: 3733

1415,1430 (5th Cir. 1996) (enbanc), superceded by statute on other grounds,28 U.S.C. § 636(b)(1)
(extending the time to file objections from ten (10) to fourteen (14) days.
SIGNED this 2nd day of August, 2018.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

34

1

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 1 of 22 PagelD #: 3734

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
SHAHRAM SHAKOURI,

)

CIVIL ACTION NO.

)

Petitioner,

)

4:15-CV-00447-ALM-KPG

)
V.

)
)

LORIE DAVIS, Director
Texas Department of Criminal
Justice, Institutional Division

)
)
)
)

Respondent.

)

J
OBJECTIONS TO REPORT AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUPPE

F. CLINTON BRODEN
TX. Bar 24001495
Broden & Mickelsen
2600 State Street
Dallas, TX 75204
214-720-9552
214-720-9594 (facsimile)
clint@texascrimlaw.com
Attorney for Petitioner
Shahram Shakouri

Mbit Y"

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 2 of 22 PagelD #: 3735

TABLE OF CONTENTS
Page No.
TABLE OF CONTENTS

2

TABLE OF AUTHORITIES

.4

OBJECTIONS TO REPORT AND RECOMMENDATION OF THE UNITED
STATES MAGISTRATE JUDGE
6
I. CONTRARY TO THE MAGISTRATE JUDGE’S FINDINGS, THE
RECORD DOES NOT SUPPORT THE CONCLUSION THAT MR.
SHAKOURI’S TRIAL COUNSEL FAILED TO REQUEST A LESSERINCLUDED INSTRUCTION FOR “STRATEGIC REASONS.” INSTEAD,
THE RECORD SHOWS ONLY THAT TRIAL COUNSEL
MISUNDERSTOOD TEXAS LAW WITH REGARD TO BEING ENTITLED
TO A LESSER-INCLUDED INSTRUCTION
7
A. Strategy Cannot Be Based Upon a Misunderstanding of the
Law
8
B. Texas Law on Lesser-included Instructions

10

C. Even Assuming a Sexual Assault, Without an “Imminent” and Non­
conditional Threat to Cause a Complainant Death or Serious Bodily
Harm, a Defendant is Guilty of Only Non-aggravated Sexual Assault
and Not Aggravated Sexual Assault,
12
D. Contrary to Trial Counsel’s Belief, Mr. Shakouri was Entitled to the
Lesser-included Instruction for Non-aggravated Sexual Assault Under
Texas Law.
13
1. Jones

13

2. The Alleged Threat was “Conditional”

14

2

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 3 of 22 PagelD #: 3736

II. THE “HARM” ANALYSIS EMPLOYED BY THE MAGISTRATE JUDGE
IN REACHING HER CONCLUSION IS CONTRARY TO THE HARM
ANALYSIS REQUIRED BY THE UNITED STATES SUPREME
COURT
15
III. FOR THE REASONS SET FORTH ABOVE, THE DECISION BY THE
STATE HABEAS COURT INVOLVED AN UNREASONABLE
APPLICATION OF CLEARLY ESTABLISHED FEDERAL LAW AND AN
UNREASONABLE DETERMINATION OF FACT
20
CERTIFICATE OF SERVICE..........................

3

22

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 4 of 22 PagelD #: 3737

TABLE OF AUTHORITIES
Page No.
Cases
Becky. Alabama, 447 U.S. 625 (1980)....................................................

7, 16, 17

Blount v. State, 542 S.W.2d 164 (Tex. Crim. App. 1976).........................

13, 15

Breakiron v. Horn, 642 F.3d 126 (3rd Cir. 2011).......................................

7, 16

Chavis v. State, 807 S.W.2d 375 (Tex. App.- Houston [14th Dist] 1991).

10

Crace v. Herzon, 798 F.3d 840 (9th Cir. 2015).......................................... 7, 17, 18
Curtis v. State, 89 S.W.3d 163 (Tex. App.- Ft. Worth 2002)....................

10

Devine v. State, 786 S.W.2d 268 (Tex. Crim. App. 1989).........................

13

Douglas v. State, 740 S.W.2d 890 (Tex. App.- El Paso 1987)..................

13, 15

Ex parte Watson, 306 S.W.3d 259 (Tex. Crim App. 2009).......................

10

Hardwick v. Crosby, 320 F.3d 1127 (1 llh Cir. 2003).................................

9

Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979)

18

Jones v. State, 984 S.W.2d 254 (Tex. Crim. App. 1998)

11, 12, 14, 15,20

Keeble v. United States, 412 U.S. 205 (1973)................

7

Louis v. Blackburn, 630 F.2d 1105 (5th Cir. 1980).........

6

Mejia v. Stephens, 289 F.Supp.2d 799 (S.D. Tex. 2017).

9

Perillo v. Johnson, 79 F.3d 441 (5th Cir. 1996)...............

20

Richards v. Quarterman, 566 F.3d 553 (5th Cir. 2009)....

8

4

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 5 of 22 PagelD #: 3738

Richards v. Quarterman, 578 Supp.2d 849 (N.D. Tex. 2008), affd, 566 F 3d 553
(5th Cir. 2009)..................................................................................................... 19
Saunders v. State, 913 S.W.2d 564 (Tex. Crim. App. 1995)

7, 19

Strickland v. Washington, 466 U.S. 668 (1984)...................

9, 17, 18

United States v. Span, 75 F.3d 1383 (9th Cir. 1996).............

8

Vinyard v. United States, 804 F.3d 1218 (7th Cir. 2015)......

8

White v. Ryan, 895 F.3d 641 (9th Cir. 2018).........................

8

Wiggins v. Smith, 539 U.S. 510 (2003).................................

9

Williams v. Taylor, 529 U.S. 362 (2000)..............................

20

Other Authorities
28 U.S. C. § 636(b)(1)

6

28 U.S.C. § 2254(d)

20

Tex. Penal Code § 1.07(46)

12

5

Case 4;15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 6 of 22 PagelD #: 3739

OBJECTIONS TO REPORT AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
Petitioner, Shahram Shakouri, hereby objects, in part, to the Report and
Recommendation ofthe United States Magistrate Judge (the “RR”) filed in the abovereferenced action on August 2,2018. As set forth below, Mr. Shakouri believes that
Magistrate Judge Nowak’s Report and Recommendation is incorrect with regard to
whether trial counsel was ineffective for not requesting a lesser-included instruction
and requests that this Court conduct a de novo review. See 28 U.S.C. § 636(b)(1);
Louis v. Blackburn, 630 F.2d 1105 (5th Cir. 1980).
With regard to whether Mr. Shakouri’s trial counsel was ineffective for not
requesting a jury instruction on the lesser-included offense of sexual assault, the
Magistrate Judge found that trial counsel had a “strategic reason” for not requesting
such an instruction and, in any event, that Mr. Shakouri was not prejudiced by the
lack of instruction because there was “no evidence to demonstrate that, had the jury
been given the instruction, it would have chosen to convict him ofthe lesser-included
offense.” RR at 16-17.
The Magistrate Judge’s first finding is not supported by the record. As
discussed below, it is clear from the record that trial counsel’s failure to request a
lesser-included instruction was based upon his incorrect belief that the defense was

6

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 7 of 22 PagelD #: 3740

not entitled to such an instruction and not because of “strategic” reasons.
With regard to the prejudice finding, the case law makes it clear that Mr.
Shakouri did not, as the Magistrate Judge concludes, have to “demonstrate that had
the jury been given the instruction, it would have chosen to convict him of the lesserincluded offense.” Indeed, both state and federal law are clearly to the contrary. See,
Beckv. Alabama, 447 U.S. 625, 634 (1980); Keeblev. United States, 412 U.S. 205,
208 (1973); Crace v. Herzon, 798 F.3d 840 (9th Cir. 2015); Breakiron v. Horn, 642
F.3d 126, 136 (3rd Cir. 2011); Saunders v. State, 913 S.W.2d 564, 571 (Tex .Crim.
App.1995).
I, CONTRARY TO THE MAGISTRATE JUDGE’S FINDINGS. THE RECORD
DOES NOT SUPPORT THE CONCLUSION THAT MR. SHAKOURI’S TRIAL
COUNSEL FAILED TO REQUEST A LESSER-INCLUDED INSTRUCTION
FOR “STRATEGIC REASONS.” INSTEAD. THE RECORD SHOWS ONLY
THAT TRIAL COUNSEL MISUNDERSTOOD TEXAS LAW WITH REGARD
TO BEING ENTITLED TO A LESSER-INCLUDED INSTRUCTION.
The Magistrate Judge suggests that Mr. Shakouri’s trial counsel failed to ask
for a lesser-included instruction for “strategic reasons.” In fact, the record makes
clear that trial counsel did not request such an instruction because he incorrectly
believed the defense was not entitled to one under Texas law. Indeed, in his affidavit
submitted to the state habeas court, Mr. Shakouri’s trial counsel explained: “I do not
believe we were entitled to a lesser included charge of sexual assault unless there was

7

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 8 of 22 PagelD #: 3741

some evidence that the offense occurred.” See Attachment A at 4. He then goes on
to claim that no such evidence existed because “Mr. Shakouri would not admit [the
sexual assault] occurred and neither did anybody else.” Id
A. “Strategy Cannot Be Based upon a Misunderstanding of the I ,aw
From trial counsel’s affidavit, it is clear that counsel believed that Mr. Shakouri
was required to “admit” the underlying sexual assault in order to be entitled to a
lesser-included instruction on sexual assault. That beliefdemonstrates a fundamental
misunderstanding of Texas law. Moreover, it is clear that a decision based on a
misunderstanding of the law is cannot be excused as “trial strategy.”
For example, in Richards v. Quarterman, 566 F.3d 553,569 (5th Cir. 2009), the
Fifth Circuit upheld the grant of habeas relied where it appeared from trial counsel’s
affidavit that he did not request a lesser-included instruction because he
“misunderstood the law governing lesser-included offenses.”). See also, e.g., United
States v. Span, 75 F.3d 1383, 1387 (9,h Cir. 1996) (“A trial attorney’s failure to
request a jury instruction receives no deference, however, when it is based on a
misunderstandingofthelaw....”); Whitev.Ryan, 895F.3d641,666(9thCir.2018)(“A
decision based on a misunderstanding of the law is not sound trial strategy.”);
Vinyardv. United States, 804 F.3d 1218, 1225 (7,h Cir. 2015) (“A strategic choice
based on a misunderstanding of law or fact, however, can amount to ineffective
8

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 9 of 22 PagelD #: 3742

assistance.”); Hardwick v. Crosby, 320 F.3d 1127, (11th Cir. 2003) (“[A] tactical or
strategic decision is unreasonable if it is based on a failure to understand the law.”);
Mejia v. Stephens, 289 F.Supp. 2d 799, 810 (S.D. Tex. 2017) (“Luna’s statement of
strategy in his affidavit appears to assume that, if he had requested a manslaughter
instruction, he would have precluded from pursuing his self-defense theory. This
assumption is based on a misunderstanding of, and insufficient investigation into, the
law. Under Texas law, self-defense is a justification for manslaughter as well as
murder. “[Wjhere a defendant disclaims intent to kill or injure by alleging accident,
he is not prevented from obtaining an instruction on self-defense where it is otherwise
appropriate.” (citation omitted)).
In sum, trial counsel makes clear in his affidavit that he did not believe the
defense was “entitled to a lesser included charge of sexual assault. As Mr. Shakouri
demonstrates below, trial counsel *s very premise for not requesting a lesser-included
instruction because he believed the evidence “dictated” all-or-nothing, was incorrect.
Consequently, the law makes clear that the Magistrate Judge erred when she excused
the failure to request the lesser-included instruction as “strategy.”

'These legion of cases are consistent with clearly decided Supreme Court law. See
Wiggins v. Smith, 539 U.S. 510, 526,(2003) (Finding ineffective assistance when counsel’s
“failure to investigate thoroughly resulted from inattention, not reasoned strategic judgment”);
Strickland v. Washington, 466 U.S. 668, 690 (1984) (“Strategic” choices must be “made after
thorough investigation of law and facts.).
9

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 10 of 22 PagelD #: 3743

B. Texas Law on Lesser-Induded Instructions
Under Texas law, there is a two-step process to determine if a defendant is
entitled to a lesser-included offense instruction upon request. Exparte Watson, 306
S.W.3d 259, 273 (Tex. Crim. App. 2009). Without question, sexual assault is
included in the proof necessary to establish the offense of aggravated sexual assault.2
Thus, the question in this case would have been whether there was even a scintilla of
evidence introduced at trial that would indicate that, if Mr. Shakouri was guilty, he
was only guilty of non-aggravated sexual assault and not aggravated sexual assault.
The Texas Court of Criminal Appeals explained how courts in Texas should
analyze the second prong of the test:
This Court analyzes the issue of lesser included offenses in terms of
determining whether there is any evidence in the record from any source
to indicate if appellant was guilty, he was guilty only of the lesser
included offense. “Anything more than a scintilla of evidence is
sufficient to entitle a defendant to a lesser charge.” Bignall, 887 S.W.2d
at 23; and cases cited therein. If there is evidence within a defendant’s
testimony which raises the lesser included offense, it is not dispositive
that this evidence does not fit in with the larger theme ofthat defendant's
testimony. Id. Whether there is evidence, within or without the
defendant's testimony, which raised the lesser included offense controls
the issue of whether an instruction on the lesser included offense should
be given.
It does not matter whether the evidence was admitted by the State or the

2See, e.g., Curtis v. State, 89 S.W.3d 163, 178-79 (Tex. App.- Ft. Worth 2002); Chavis v.
State, 807 S.W.2d 375, 377 (Tex. App.-Houston [14th Dist.] 1991).
10

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 11 of 22 PagelD #: 3744

defense. It does not matter if the evidence was strong or weak,
unimpeached or contradicted. Rousseau v. State, 855 S.W.2d 666, 672
(Tex. Crim. App. 1993); and Bell v. State, 693 S.W.2d 434, 442 (Tex.
Crim. App. 1985). The trier of fact is always free to selectively believe
all or part of the testimony proffered and introduced by either side.
Bignall, 887 S.W.2d at 24; and cases cited therein. So long as there is
some evidence which is “directly germane” to a lesser included offense
for the factfinder to consider, then an instruction on the lesser included
offense is warranted. Bignall, Id.; and Skinner v. State, 956 S. W.2d 532,
543 (Tex. Crim. App. 1997).
Jones v. State, 984 S.W.2d 254, 257 (Tex. Crim. App. 1998).
For example, in Jones, the Court of Criminal Appeals was confronted with an
allegation that Mr. Jones stole items from a grocery store and fought with store
employees when they attempted to detain him. Id. at 255. As a result, he was put on
hiai for robbery. Id. Mr. Jones testified at trial in his own defense and denied both
the theft and the assault. Id. Nevertheless, the Court of Criminal Appeals held that,
based on Mr. Jones s testimony, Mr. Jones was entitled to an assault instruction as a
lesser-included offense to the offense of robbery.
[W]hen appellant testified that he did not commit a theft at Fiesta, the
jury was free to believe his testimony that he did not intend to steal
anything and never left the store with property which he had not paid
for. A “lesser included offense may be raised if evidence either
affirmatively refutes or negates an element establishing the greater
offense.” Schweinle v. State, 915 S.W.2d 17, 19 (Tex. Crim. App.
1996). Here, appellant's testimony that he did not steal or intend to steal
negated the theft element of the robbery charge. If the jury believed
appellants testimony that he did not steal and believed the State's
evidence that he struck Michelle Yancey, they could rationally conclude
11

Case 4:15-cv-00447-ALM-CAN Document 32

Filed 08/16/18 Page 12 of 22 PagelD #; 3745

that appellant committed assault and not theft. When appellant denied
he committed the theft, even though it was in the context ofdenying all
criminal intent, the trial court should have instructed the jury on the
lesser included offense of assault. We conclude the trial court erred
when it dented appellant's request for instructions on the lesser included
offense 01 misdemeanor assault.
Id. at 257 (emphasis added).
In sum, Texas law is clear that, if there is even a scintilla of evidence in the
record and regardless of the strength of the evidence, a defendant is entitled to a
lesser-mcluded instruction. Moreover, it does not matter ifthe defendant denie

sboth

the lesser-included offense and the greater offense.
fT V
SSUnll"g 3 Sexual Assault- Without an “Imminent”
^.n-conditional Threat to Cause a Complainant Death nr Smn„.
godily Harm a Defendant is Guilty of Only Nnn-aggravated
Assault and Not Aggravated Sexual Assault.
The indictment in this case charged Mr. Shakouri with the aggravated sexual
assault of the Complainant because he allegedly placed her “in fear th
serious bodily injury would be imminently inflicted [on her].”3

at death or

Without proof that

the Complainant was placed in imminent fear of death or serious bodily injury, Mr.
Shakoun would, at most, be guilty of non-aggravated sexual assault.

5
12

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 13 of 22 PagelD #; 3746

The Texas Court of Criminal Appeals has interpreted an “imminent” threat to
mean a present, not a future, threat of bodily injury or death. Devine v. State, 786
S.W.2d 268, 270 (Tex. Crim. App. 1989). The Court of Criminal Appeals has also
made clear that a conditional threat of death, if a rape victim tells anyone about a
sexual assault, is insufficient to satisfy the requirement of the aggravated rape statute
that the threat be imminent. Blount v. State, 542 S.W.2d 164,166 (Tex. Crim. App.
1976). Likewise, another Texas court found that a defendant's statement to a victim
(after a rape), that she was a “dead duck” if she called the police, was not considered
to be an “imminent” threat. Douglas v. State, 740 S.W. 2d 890, 892 (Tex. App.-El
Paso 1987).
D. Contrary to Trial Counsel’s Belief. Mr. Shakouri Was Entitled
to the Lesser-included Instruction for Non-aggravated Sexual
Assault Under Texas Law.
Trial counsel s own affidavit avers: “While the complainant testified, she did
not testify she believed the threat was of eminent [sic.] harm or fear of injury.” See
Attachment A at 4. Thus, it is truly bizarre that trial counsel did not believe that the
defense was “entitled to a lesser-included charge of sexual assault.”
1. Jones
To have been entitled to the lesser-included instruction for non-aggravated
sexual assault, there simply had to be a scintilla of evidence that Mr. Shakouri did not
13

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 15 of 22 PagelD #: 3748

anybody, I will kill you and your child.” (RRIV: 170 (emphasis added)).5
In sum, there was certainly a scintilla of evidence in the record that any threat
of death or serious bodily injury that Mr. Shakouri allegedly made to the Complainant
was a conditional threat to kill her if she informed the police or others about the
alleged sexual abuse. Clearly, under Blount and Douglas, this evidence would
support a conviction for non-aggravated sexual assault and “so long as there is some
evidence which is ‘directly germane’ to a lesser included offense for the factfinder to
consider, then an instruction on the lesser included offense is warranted.” Jones, 984
S.W.2d at 257 (citations omitted).
IL_THE “HARM” ANALYSIS EMPLOYED BY THE MAGISTRATE JUDGE
IN REACHING HER CONCLUSION IS CONTRARY TO THE HARM
ANALYSIS REQUIRED BY THE UNITED STATES SUPREME COURT
As noted above, the Magistrate Judge found that Mr. Shakouri did not
demonstrate any prejudice as a result of trial counsel’s failure to request the lesserincluded instruction because there was “no evidence to demonstrate that had the jury
been given the instruction, it would have chosen to convict him ofthe lesser-included
offense.” RR at 17. Indeed, at first blush, it could be said that the failure of trial

5The Complainant also testified that, on the final night in the home when she, her son and
her sister allegedly hid in a closet, that Mr. Shakouri had a telephone conversation with his
brother in which he threatened to “really bother her” and to kill her and her sister. (RR IV: 196)
Significantly, this alleged threat was not connected with any sexual assault.
15

Case 4:15-cv~00447-ALM-CAN Document 32 Filed 08/16/18 Page 14 of 22 PagelD #; 3747

make any threat to the Complainant or that any threat he made was not an “imminent
threat,” but, instead, a conditional threat of death or serious bodily injury. Here, Mr.
Shakouri testified that no threat was made and, therefore, he would have been entitled
to the lesser included instruction under the rationale set forth by the Texas Court of
Criminal Appeals in Jones.4
2. The Alleged Threat was “Conditional”
Moreover, the Complainant’s testimony indicated that most, if not all, of the
threats of death or serious bodily injury she alleged that Mr. Shakouri made were not
imminent but rather conditional threats of death or serious bodily injury if she told
others about the alleged abuse. For example, the Complainant testified that she
believed that Mr. Shakouri knew of the disclosure she made to her sister and that he
then, via telephone, threatened to rape and kill her ifshe told anybody or the police
about the alleged abuse. (RR IV:194) The Complainant also testified that, during
an alleged sexual assault, Mr. Shakouri told her “if you would say anything to

4Jones 984 S.W.2d at 257 (“Here, appellant's testimony that he did not steal or intend to
steal negated the theft element of the robbery charge. If the jury believed appellant's testimony
that he did not steal and believed the State's evidence that he struck Michelle Yancey, they could
rationally conclude that appellant committed assault and not theft. When appellant denied he
committed the theft, even though it was in the context of denying all criminal intent, the trial
court should have instructed the jury on the lesser included offense of assault.”).
14

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 16 of 22 PagelD #: 3749

counsel to request a lesser-included instruction cannot be harmful given that, if the
jury did not believe the greater offense had taken place and only believed the lesser
offense had taken place, the jury would have acquitted the defendant. Nevertheless,
it is clear that this is not the law.
For example, in Breakiron, the defendant had argued in a post-conviction
motion following his state court conviction that trial counsel was ineffective for
failing to request a jury instruction on theft, which is a lesser-included offense in the
charge of robbery. This argument was rejected by the state habeas court under the
theory that the jury necessarily rejected an argument that the defendant was only
guilty of theft when it convicted him of robbery and, thus, because the court believed
the evidence was legally sufficient on the robbery charge it was not likely that the
jury would have returned a verdict only on the theft charge. Breakiron 642 F.ed at
139.
The Third Circuit Court of Appeals found that the resolution of the case by the
state habeas court was unreasonable in light of Supreme Court precedent in Beck:
Without a theft instruction, the jury was left with only two
choices
onviction of robbery or outright acquittal. In such
all-or-nothing situations, “ ‘[w]here one of the elements of the offense
charged remains in doubt, but the defendant is plainly guilty of some
offense, the jury is likely to resolve its doubts in favor of conviction.
Beck 447 U.S. at 634, 100 S.Ct 2382 (quoting Keeble, 412 U.S. at
212-13, 93 S.Ct. 1993). Thus, even though juries are obligated u i as a
y 9)

16

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 17 of 22 PagelD #: 3750

theoretical matter’ ” to acquit if they do not find every element of a
crime, there is a “ ‘substantial risk that the jury's practice will diverge
from theory’ ” when it is not presented with the option of convicting of
a lesser offense instead of acquitting outright. Id. (quoting Keeble, 412
U.S. at 212, 93 S.Ct. 1993). By conceding theft but not requesting a
theft instruction, Breakiron's counsel exposed him to that “substantial
risk,” and the record reveals that he had no strategic reason for doing so.
Id. at 138. The Court of Appeals noted that the problem with the state habeas court’s
Strickland prejudice analysis was that:
it rests solely on the jury's duty as a theoretical matter’ ” to acquit if
it does not find every element of a crime and does not acknowledge the
n t
substantial risk that the jury's practice will diverge from theory »
when it is not presented with the option of convicting of a lesser offense
instead of acquitting outright. Beck, 447 U.S. at 634, 100 S.Ct. 2382
(quoting Keeble, 412 U.S. at 212, 93 S.Ct. 1993). The crux of
Breakiron's claim of prejudice is that he was exposed to this “substantial
risk,” but the Pennsylvania Supreme Court did not acknowledge it.
44 4

Id. at 139.
The Third Circuit’s analysis was more recently affirmed in Crace where the
United States Court of Appeals for the Ninth Circuit found state trial counsel
ineffective for failing to request a lesser-included instruction of unlawful display of
a weapon where the defendant had been convicted of assault. The state habeas court
believed it was required to presume that the jury would not have convicted the
defendant unless the State had met its burden of proof on the greater assault charge
and that the availability of a compromise verdict would thus not have changed the

17

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 18 of 22 PagelD #: 3751

outcome of the trial. Grace, 798 F.3d at 845. The Ninth Circuit, like the Third
Circuit, rejected such an “ivory tower” analysis:
As the Supreme Court has recognized in a related context, a jury
presented with only two options—convicting on a single charged
offense or acquitting the defendant altogether—“is likely to resolve its
doubts in favor of conviction” even if it has reservations about one of
the elements of the charged offense, on the thinking that “the defendant
is plainly guilty of some offense. ” Keeble v. United States, 412 U.S.
205, 212-13, 93 S.Ct. 1993, 36 L.Ed.2d 844 (1973) (construing the
Major Crimes Act of 1885 not to preclude lesser-included-offense
instructions, in order to avoid constitutional concerns); see also Hopper
v. Evans, 456 U.S. 605,611,102 S.Ct. 2049, 72 L.Ed.2d 367 (1982). It
is therefore perfectly plausible that a jury that convicted on a particular
offense at trial did so despite doubts about the proof of that
offense doubts that, with “the availability of a third option,” could
have led it to convict on a lesser included offense. See Keeble, 412 U.S.
at 213, 93 S.Ct. 1993. Making this observation does not require us to
speculate that the jury would have acted “lawlessly]” if instructed on an
additional, lesser included offense or to question the validity of the
actual verdict. Rather, it merely involves acknowledging that the jury
could rationally” have found conviction on a lesser included offense to
be the verdict best supported by the evidence. See id.
Id. at 848. The Ninth Circuit noted that the state habeas court wrongly “converted
Strickland's prejudice inquiry into a sufficiency-of-the-evidence question—an entirely
different inquiry separately prescribed by Jackson v. Virginia, 443 U.S. 307,324,99
S.Ct. 2781, 61 L.Ed.2d 560 (1979). Crace, 798 F.3d at 849.
This type of analysis was also adopted by a court in this district and affirmed
by the United States Court ofAppeals for the Fifth Circuit. Richards v. Quarterman,

18

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 19 of 22 PagelD #: 3752

578 Supp.2d 849 (N.D. Tex. 2008), tiff'd, 566 F.3d 553 (5th Cir. 2009).
There is no rational reason why [trial counsel] Davis would not have
requested a lesser-included instruction on aggravated assault. The
failure to request it was not the result of any trial strategy or reasoned
decision. Indeed, the court is satisfied, and finds, that it never occurred
to Davis to request such an instruction. Davis's conduct in failing to
request such an instruction fell below an objective standard of
reasonableness, and was outside even the widest range of reasonable
professional assistance. Again, the court has been highly deferential in
its evaluation of Davis’s conduct, and has made every effort to avoid the
distorting effects ofhindsight. The presumption that Davis's conduct in
failing to request a lesser-included instruction on aggravated assault was
within the wide range of reasonable professional assistance has been
overcome by the record in this action.
There is a reasonable probability that, but for the unprofessional conduct
of Davis in not requesting a lesser-included instruction, the result of
Richards s trial would have been different-Davis's error was sufficient
to undermine the confidence in Richards's trial. Because of Davis's
error, the jury finding of murder against Richards was fundamentally
unfair and unreasonable. There is a probability that the jury would not
have convicted Richards of murder if it had been given the option of
convicting him of aggravated assault.
Id. 867-68.6

The Texas Court of Criminal Appeals has reached the same conclusion when analyzing
whether a defendant was harmed by the failure of his trial counsel to request a lesser-included
instruction. See, Saunders 913 S.W.2d at 571 (“[W]e have routinely found ‘some1 harm, and
therefore reversed, whenever the trial court has failed to submit a lesser included offense that was
requested and raised by the evidence—at least where that failure left the jury with the sole option
either to convict the defendant of the greater offense or to acquit him.”).
19

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 20 of 22 PagelD #: 3753

III. FOR THE REASONS SET FORTH ABOVE. THE DECISION BY THE
STATE HABEAS COURT INVOLVED AN UNREASONABLE APPLICATION
OF CLEARLY ESTABLISHED FEDERAL LAW AND AN UNREASONABLE
DETERMINATION OF FACT.
Putting aside the failure of the Magistrate Judge to hold a hearing in this case
despite Applicant’s request,7 the decision by the state habeas court involved an
unreasonable application of clearly established federal law and an unreasonable
determination of fact.
Indeed, as explained above, the record does not support a finding that counsel
made a “strategic decision” not to request a lesser-included instruction. Instead, the
record demonstrates clearly that the failure to request such an instruction is
attributable to trial counsel’s failure to understand state law on the availability of
lesser-included instructions in these circumstances. See., e.g., Jones 984 S.W.2d at
257. Consequently, 28 U.S.C. § 2254(d) does not preclude habeas relief. See
Williams v. Taylor, 529 U.S. 362, 402-03 (2000).

1See Perillo v. Johnson, 79 F.3d 441 (5th Cir. 1996)

20

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 21 of 22 PagelD #: 3754

Respectfully submitted,

/si F. Clinton Broden
F. Clinton Broden
TX Bar No. 24001495
Broden & Mickelsen
2600 State Street
Dallas, Texas 75204
214-720-9552
214-720-9594 (facsimile)
clint@texascrimlaw.com
Attorney for Petitioner
Shahram Shakouri

21

Case 4:15-cv-00447-ALM-CAN Document 32 Filed 08/16/18 Page 22 of 22 PagelD #: 3755

CERTIFICATE OF SERVICE
I, F. Clinton Broden, certify that on August 16, 2018,1 caused a copy of the
above document to be served via electronic filing on all counsel of record.

/s/ F. Clinton Broden
F. Clinton Broden

22

Case 4:15-cv-00447-ALM-CAN Document 32-1 Filed 08/16/18 Page 2 of 6 PagelD #: 3757

W219-80595-07-HC
EX PARTE SHAHRAM SHAKOURI
§
IN THE DISTRICT COURT
§

§
§
§

219™ JUDICIAL DISTRICT
COLLIN COUNTY, TEXAS
>-

r-.

o

o

if < =3
e

AFFIDAVIT OF BILL BURDOCIf

3

<s>

t-

— Ui

STATE OF TEXAS
COUNTY OF TARRANT

§
§
§

ah- =£

ii

II

lOUU;S

!

«a£i

ll,

: ^53

^~

§ s 2

Before me, the undersigned notary public, on this day, personally appeared BILL *
BURDOCK, who after being placed under oath stated as follows:
“I was retained to represent SHAHRAM SHAKOURI in a criminal case in Collin
County. I had previously represented Shahram in a family violence case and a Divorce in
Tarrant County. At the time of trial, I was representing Shahram in a second Divorce and
a civil matter in Collin County.
The charges against Mr. Shakouri from Collin County were surprising from what
1 knew of Mr. Shakouri and Mrs. Shakouri’s story was a little worse every time I spoke to
the State. He maintained that the entire affair was the result of a conspiracy between his
second wife and an Iranian dentist who lived in California to achieve some vaguely
defined goal in the Untied States. I told Shahram that my experience in these matters in
40 years of law practice was that originally both parties consent to this behavior, but at
some time one of the parties withdraws their consent and the other party desires to
continue the practice.
“In completely rejecting the above approach, Shahram informed me that his
religion rejected this behavior and he insisted on going to trial with the conspiracy theory.
“The second major problem we faced was to keep Mr. Shakouri off of the witness
stand, if possible. Mr. Shakouri had testified a number of times in his divorce case and in

AFFIDAVIT or BILL BURDOCK/nh

Page I

ft

/

Case 4:15-cv-00447-ALM-CAN Document 32-1 Filed 08/16/18 Page 3 of 6 PagelD #: 3758

all occasions he came off as a nasty, abrasive, overbearing and insensitive individual who
had little or no respect for women. Mr. Shakouri also rejected this approach.
“In my opinion the State over played their hand. As time passed the story seem to
grow like topsy with every new revision, the story seemed to change for the worse.
“Mr. Shakouri agreed that if we could make the story sound so wild and fanatic
no one would believe the story, and we could poke holes in various places to raise
reasonable doubt. This strategy had worked for me in the past.
A.
“Mr. Shakouri is correct to assert that I failed to file a Motion to Suppress
evidence in this case. Mr. Shakouri’s position was this evidence was planted by either the
Complainant, her teenage son or the police. Some of the worst images were kept from the
jury, by agreement with the State.
“Mr. Shakouri seems to overlook the fact that the victim also lived in the same
house as Mr. Shakouri, although she at one time said she was at the women shelter, and
she had told the police about the computer and the contents.
“I seriously doubted if the Judge would grant a Motion to Suppress. More
importantly, this does sound another embellishment of the second wife’s outlandish
claims. The record would reflect we called a considerable number of well dressed,
sophisticated, professional people who knew Shahram and who testified Mr. Shakouri
never did anything, at work or socially, that would indicate he was incline to pornography
or abuse of women as pointed out by applicant. His former wife also testified during her
lengthy marriage she never saw any pornography in the possession of Mr. Shakouri or
engaged in deviant behavior with him.
“In addition the Defense produced by video tape deposition the testimony of the
complaint’s neighbor in Tehren, Iran, that the victim possessed a dildo of the same
description as the one seized in the search, as hers prior to her marriage to Mr. Shakouri.

B.
404(b) Objection
“I thought any pornographic pictures were not relevant to the issue being tried.
However, the more disturbing the pictures, if they were put into evidence, was just

AFFIDAVIT OF BILL BIJRDOCK/nh

Page 2

Case 4:15-cv-00447-ALM-CAN Document 32-1 Filed 08/16/18 Page 4 of 6 PagelD #: 3759

another example of an embellishment of the facts by the State. No one connected the
pictures to Mr. Shakouri, except to say they were found near his property.
“Mrs. Shakouri’s conduct during the marriage did not in any way act like an
abused woman. I certainly did not want a limiting instruction, which instructed the jury.
Instruction-Limited Use of Evidence-Uncharged “Bad Acts”
Evidence of Wrongful Acts Possibly Committed by Defendant
During the trial, you heard evidence that the defendant may have committed
wrongful acts not charged in the indictment. [Ifrequested by a party, include judge‘s
description ofspecific acts.] The state offered the evidence to show that the defendant
[describe purpose]. You are not to consider that evidence at all unless you find, beyond a
reasonable doubt, that the defendant did, in fact, commit the wrongful act. Those of you
who believe the defendant did the wrongful act may consider it.___________________
Even if you do find that the defendant committed a wrongful act, vou mav
consider this evidence only for the limited purpose I have described. You may not
consider this evidence to prove that the defendant is a bad person and for this reason was
likely to commit the charged offense. In other words, you should consider this evidence
only for the specific, limited purpose I have described. To consider this evidence for any
other purpose would be improper.
“Rather than draw additional attention to this material by having it in the charge,
the decision was made to add this to our list in argument about overkill and
embellishment of the story promulgated by the witness.
“In response to her testimony that she was anally raped, repeatedly, after being
restrained, with a huge dildo similar to pictures of her holding one in premarital photos
taken in Iran, we called a doctor who reviewed medical records prepared by the physician
who saw the victim at the hospital where she went after the final “anal rape”. The
Defendant’s expert witness found that no notation of any trauma to the victim’s anal
cavity was noted on the records. This in contrary to Defendants witness who testified
there is usually a great deal of difference in the anal area between people who participate
in this activity and those who do not.

AFFIDAVIT OF BILL BIJRDOCK/nh

Page 3

Case 4:15-cv-00447-ALM-CAN Document 32-1 Filed 08/16/18 Page 5 of 6 PagelD #: 3760

“To rebut the Defendant’s medical expert, the State offered the testimony of the
police rape investigator who testified that she did not need any medical records, she could
tell if Mrs. Shakouri was raped by looking at her and talking with her.
C.
Failure to Demand that the State Make an Election
“There was no belief on counsel’s part that evidence of the events testified by the
victim would get before jury by anyone of several ways, there would be to our advantage
to argue the whole story was too exaggerated and greatly embellished to be believable.
Regarding the argument of the Applicant ihat this theory was not argued to the jury, let
me say that there were a great deal of things I would have liked to argue, but the Court
limited arguments as to time.
D.
Lesser-Included Offense of Second Degree of Sexual Assault
“While the complainant testified, she did not testify she believed the threat was of
eminent harm or fear of injury, we had no way of rebutting this statement, except by
applicant who testified no type of rape ever occurred.
“I do not believe we were entitled to a lesser included charge of sexual assault
unless there was some evidence that the offense occurred.
“Mr. Shakouri would not admit it occurred and neither did anyone else. It was
either aggravated sexual assault or not guilty.
“To the defense, it was just one in another embellishment of the facts.
E.
No Limiting Instruction on the Threat to Kill
“The limiting instruction argument under “B” above is incorporated herein. This
is one of the wild allegations of the allegations of the complaints, which were elicited at
about the same time complainant testified of hair pulling. We countered this statement by
showing the jury many family photos, none of which reflected any loss of complainant’s
hair and all of which reflected the witness enjoying the opportunity to visit her in laws.

AFFIDAVIT OF BILL BCJRDOTK/nh

P*ge4

Case 4:15-cv-00447-ALM-CAN Document 32-1 Filed 08/16/18 Page 6 of 6 PagelD #: 3761

F.
Jury Voir Dire
“It is true that I could object to many statements made by the Prosecutor. I made a
number of objections, which were sustained by the Court. The prosecutor was very
personable young man who was liked by the jury.
“Whatever the prosecutor said to the jury would not hurt us as much as the
complainant’s testimony. It is always my theory that you can often object too many times
and the jury panel gets angry at you. Therefore unless the statements would hurt us, I did
not object.”

BILL BURDOCK
Attorney At Law
STATE OF TEXAS
COUNTY OF TARRANT

5
6
6

SUBSCRIBED AND SWORN TO before me on this 8th day of October, 2012,
by BILL BURDOCK.

•u rroMU
NANCY HARP
Notary Public. State of Texas
1j./ff/.J My Commission Expires
yQjfr
Auqult 0Q014

AFFIDAVIT OF BILL BURDOCK/nh

Notary P irolic for Slatte of Texas

Page 5

*

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 1 of 25 PagelD #: 3659

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
SHAHRAM SHAKOURI,

)

CIVIL ACTION NO.

)

Petitioner,

)

4:15-C V-00447-ALM-KPG

)

v.

)
)

LORIE DAVIS, Director
Texas Department of Criminal
Justice, Institutional Division

)
)
)
)

Respondent.

)

REPLY TO RESPONDENT’S ANSWER

F. CLINTON BRODEN
TX Bar No. 24001495
Broden & Mickelsen,
2600 State Street
Dallas, Texas 75204
214-720-9552
214-720-9594 (facsimile)
clint@texascrimlaw.com
Attorney for Petitioner
Sharam Shakouri

y*

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 2 of 25 PagelD #: 3660

TABLE OF CONTENTS
Page No.
TABLE OF CONTENTS

2

TABLE OF AUTHORITIES

4

REPLY TO RESPONDENT DAVIS’S ANSWER

6

I. Violence Against Women Act.

6

II. Factual Background

8

A. Afsaneh Marous

9

B. Sharam Shakouri

11

III. ARGUMENT.

11

A. Trial Counsel Provided Ineffective Assistance of Counsel by Failing to
Request the Lesser-included Instruction for Non-Aggravated Sexual
Assault
11
1. The State Habeas Court Decision is Based on an Unreasonable
Determination of the Facts in Light of the Evidence Presented in the
State Court Proceeding
12
2. Trial Counsel was Ineffective under Texas Law for not Requesting
the Lesser-included Instruction ofNon- Aggravated Sexual Assault... 13
a. Texas Law on Lesser-included Instructions

13

b. Even Assuming a Sexual Assault, Without and “Imminent”
and Non-conditional Threat to Cause a Complainant Death or
Serious Bodily Harm a Defendant is Guilty of Only NonAggravated Sexual Assault and Not Aggravated Sexual
2

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 3 of 25 PagelD #: 3661

Assault.

16

c. Contrary to Trial Counsel’s Belief, Mr. Shakouri was Entitled'
to the Lesser-Included Instruction for Non-Aggravated Sexual
Assault.
17
d. Mr. Shakouri was Prejudiced by the Failure to Request the
Lesser-Included Instruction,
19
B. The State Used False Testimony at Trial

20

1. The State Habeas Court Decision is Based on an Unreasonable
Determination of the Facts in Light of the Evidence Presented in the
State Court Proceedings.........................................................
21
2. The New Evidence from Mr. Manteghinezhad Certainly Rai ses a
Reasonable Probability that Ms. Marous Committed Peijury at
Trial
22
CERTIFICATE OF SERVICE

25

3

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 4 of 25 PagelD #: 3662

TABLE OF AUTHORITIES
Page No.
Beckv. Alabama, 447U.S. 625 (1980).......................................................

.20

Bellv. State, 693 S.W.2d434(Tex. Crim. App. 1985)..........................

14

Blount v. State, 542 S.W.2d 164 (Tex. Crim. App. 1976)............................

15,16

Chavis v. State, 807 S.W.2d375 (Tex. App. -Houston [14thDist.] 1991)....

14

Curtis v. State, 89 S. W.3d 163 (Tex. App. - Ft. Worth 2002).......................

14

Devine v. State, 786 S.W.2d 268 (Tex. Crim. App. 1989)...........................

16

Douglas v. State, 740 S.W.2d 890 (Tex. App. - El Paso 1987)...................

17,18

Exparte Watson, 360 S.W.3d 259 (Tex. Crim. App. 2009)..........................

13

Jones v. State, 984 S.W.2d254 (Tex. Crim. App. 1998)............................. 15,18,19
Keeblev. United States, 412 U.S. 205 (1973)...............................................

20

Rousseau v. State, 855 S.W.2d666 (Tex. Crim. App. 1993)........................

14

Santiago v. Alonso, 96 F. Supp. 58 (D. P.R.2000)........................................

7

Saunders v. State, 913 S.W.2d 564 (Tex. Crim. App. 1995).........................

19

Schweinle v. State, 915 S.W.2d 17 (Tex. Crim. App. 1996)..........................

15

Shakouri v. State, 2010 WL 336598 (Tex. Ct. App. - Dallas Aug. 30,2010)

9

Skinnerv. State, 956 S.W.2d 532 (Tex. Crim. App. 1997)............................

15

4

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 5 of 25 PagelD #: 3663

Other Authorities
42 U.S.C. § 13981

6

“A Husband Spumed,” Slate (Nov. 8, 2010)

7

“Immigrants Preying on Americans with False Tales of Abuse to Stay in U.S.,
Experts SayFox News, (Sept 8, 2016)........................................................... ’

7

Tex. Penal Code § 1.07(46)

16

United States Constitution, Amendment XIV.
Violence Against Women Act (VAWA)

6
passim

5

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 6 of 25 PagelD #; 3664

REPLY TO RESPONDENT DAVIS’S ANSWER1
This Reply focuses on two of the issues raised in Petitioner Sharam Shakouri ’s
Petition for Writ of Habeas Corpus:
Issue I (C): Whether Trial Counsel Provided Ineffective Assistance of
Counsel by Failing to Request the Lesser-included Instruction for
Sexual Assault.
Issue IV: Whether the State Used False Testimony at Trial.
I. VIOLENCE AGAINST WOMEN ACT
The Violence Against Women Act (VAWA) was enacted for the salutary
purpose of protecting women who were victims of violent crimes.
Congress enacted the Violence Against Women Act of 1994 (hereinafter
“VAWA”) as a response to increasing nationwide problems with
domestic violence, sexual assault, and other forms of violent crimes
against women. In enacting said statute, Congress specifically invoked
its legislative powers under the Commerce Clause and § 5 of the
Fourteenth Amendment, 42 U.S.C. § 13981(a), and created a federal
substantive right “to be free from crimes of violence motivated by
gender.” 42 U.S.C. § 13981(b). Further, Congress provided victims of
these crimes with a private cause of action for compensatory and
punitive damages, injunctive relief and any other appropriate remedy
against any person who commits a crime of violence motivated by
gender. 42 U.S.C. § 13981(b) & (c). The VAWA’s self-stated purpose
is “to protect the civil rights of victims of violence motivated by gender
and to promote public safety, health and activities affecting interstate
commerce by establishing a Federal civil rights cause of action for
victims of crimes of violence motivated by gender ” 42 U S C 8
13981(a).
' *

Mr. Shakouri renews his request for an evidentiary hearing.

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 7 of 25 PagelD #: 3665

Santiago v. Alonso, 96 F.Supp. 58, 60-61 (D. P.R. 2000).
Nevertheless, despite the salutary purpose of the VAWA, it created a preserve
incentive for immigrants to falsely claim to be victims of domestic violence in order
to obtain legal status in the United States. Indeed, this is a recognized phenomenon.
Hundreds of American men say their foreign wives exploited a section
of the VAWA that helps victims of spousal abuse to remain in the
United States even if they exit their marriage. The spumed husbands
say their immigrant spouses have lied to police, judges, and women’s
shelters in their efforts to manufacture evidence of abuse.
A Husband Spumed,” Slate, (Nov 8, 2010) As noted by one former enforcement
agent for ICE, This is a tough situation. You want to have the law protect domestic
violence victims, yet the law also creates another vulnerability in our immigration
systems that is exploited by fraudsters:' “Immigrants Preying on Americans with
False Tales of Abuse to Stay in U.S., Experts Say,” Fox News, (Sept. 8, 2016)
(emphasis added).
At the trial of the instant case, there was, in fact, expert testimony provided by
Gary Davis a Texas attorney certified by the Texas Board of Legal Specialization in
Immigration and Naturalization law that discussed this vulnerability to the system.
Q. And then what happens when [immigrants] get to this country and
they promptly separate after a few days.
A. It becomes very difficult for the non-U.S. citizen spouse. At that
point options are limited because when someone has entered the country

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 8 of 25 PagelD #: 3666

under a fiancee Visa, they can only become permanent residents, or
technically adjust their status to permanent resident, through the
marriage relationship that led to the fiancee Visa.
The only alternative to that, that has any reasonable chance to succeed
through the relationship would be if the person were abused, they could
file under the Violence Against Women Act for a self-petition. If that
self-petition were to be approved, then the person would be eligible to
seek a Green Card without the sponsorship of the U.S. citizen spouse.
He * sfc *

Q. And how hard is that to do to persuade - to go that way? It would
seem like everybody would say that.
A. Frankly, it happens quitefrequently; but because of the protections
and the sensitive nature of the request itself, there are built into the
statute privacy limitations such that the non-U.S. citizen spouse, their whatever evidence they submit is taken basically at face value....
(RR V:203-04) (emphasis added)
II. FACTUAL BACKGROUND
The bottom line to this case is simple. Either Afsaneh Marous was a sexually
abused woman entitled to protection under the VAWA or she, like others have done,
has perpetrated a serious fraud upon the state court in order to be able to remain in the
United States of American and have a path to citizenship. If it is the latter,
Respondent, albeit unknowingly, now assists her in continuing to perpetrate this
egregious fraud on this Court.

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 9 of 25 PagelD #: 3667

A. Afsaneh Marous
The Court of Appeals described Ms. Marous’s testimony as follows:
In May 2006, Marous and her son arrived in Dallas. That night, Marous
alleged appellant threw her onto the bed, handcuffed her arms above her
head and raped her. Marous stated the violence continued during sex,
in that appellant would slap, bite and punch her. Marous also testified
that the first time appellant anally raped her, he put his elbow into her
back, pressed her head sideways onto the mattress with his hand and
forced his penis into her backside with such force that it displaced the
mattress
She also stated that during anal sex, he would clutch her hair and pull
her head back toward him, yanking out her hair and ignoring her
complaints. Marous explained that he would press his weight against
her so he could bind her ankles to the bed with straps that left marks on
her legs. He also used sex toys in her vagina and anus. Marous testified
that appellant seemed to derive pleasure from her pain and explained
when appellant failed to use lubrication for the sex toys, she would
bleed.
She complained that if she said “no,” he would hit and bite her. Marous
testified that appellant claimed if she said anything to anybody, “[he]
would kill [her] and [her] child.” She stated she was scared of him and
for her son, and tried to appease him to calm him down.
Shakouri v. State, 2010 WL 336598, *1 (Tex. Ct. App.-Dallas Aug. 30, 2010)
Notably, Ms. Marous testified that she asked Mr. Shakouri, “why are you doing this?”
and Mr. Shakouri told her that this was common place in American and that American
women liked these things. (RRIV: 165)2 Ms. Marous also claimed that Mr. Shakouri

2This is significant because Mr. Shakouri’s first wife testified at sentencing that, during
their thirty-years of marriage, Mr. Shakouri never tried to use sexual toys with her, never showed

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 10 of 25 PagelD #: 3668

often used a large purple dildo and other dildos to anally and vaginally rape her. (RR
IV: 167-69,180)3
In November, Ms. Marous’s sister visited from Italy and, when the entire
family took a trip to California and Las Vegas, Ms. Marous claimed that she told her
sister that Mr. Shakouri was abusing her. (RR VIII:36-48) Ms. Marous testified that
she believed that Mr. Shakouri knew of the disclosure she made to her sister and, on
the trip home, he called her (Ms. Marous) and threatened to rape and kill her if she
told the police about the alleged abuse. (RR IV:194-96)4 Ms. Marous alleged that,
when they arrived home, Mr. Shakouri called his brother and she overheard Mr.
Shakouri say that he wanted to kill her and her son and her sister. (RR IV: 196) Ms.
Marous testified that she then hid in the closet that night with her son and her sister
and, with the assistance of church friends, left Mr. Shakouri the following morning
and moved into a shelter. (RR IV: 198-99)
Ms. Marous admitted that she obtained a Green Card based on her claims of
her pornographic movies, never tried to force her to have sex, never tied her up and never pulled
her hair. (RRD056-57)
3This is significant because a doctor testified at trial that, based on Ms. Marous’s medical
records, there was absolutely no evidence of trauma or scarring to her anus and that, had Ms.
Marous been raped anally with the dildos she described and which were admitted into evidence,
there would have been scar tissue left which would be apparent upon examination. (RR IV-21621,226-28)
4He allegedly made this call even though Ms. Marous was in his line of vision at the time
he made the call. (RRV:194)
10

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 11 of 25 PagelD #: 3669

abuse by Mr. Shakouri. (RR VL47-48)
B. Sharam Shakouri
At trial, Mr. Shakouri generally denied ever threatening Ms. Marous or forcing
her to have sex against her will. He claimed that Ms. Marous had a huge sexual
appetite and often used sex toys on herself. (RR VII:85-87) He alleged that, contrary
to Ms. Marous’s testimony, she brought several sex toys from Iran including the
purple dildo. (RR VIII:73-80)5
III. ARGUMENT
As noted above, this Reply focuses on two of the issues raised in Petitioner
Sharam Shakouri’s Petition for Writ of Habeas Corpus.
A, Trial Counsel Provided Ineffective Assistance of Counsel by Failing to
Request the Lesser-included Instruction for Non-Aggravated Sexual Assault.
In recommending denial of relief on this ground the state habeas court made
the following findings, inter alia:
27. Applicant’s denial that any sexual assault occurred did not raise the
lesser-included offense of sexual assault.
28. Applicant dictated an all or nothing defense. Affidavit of Burdock
at 4.

5A friend and next-door neighbor of Ms. Marous from Iran testified at trial by deposition
that she had seen a purple dildo in Ms. Marous’s house when Ms. Marous lived in Iran. (RR
VI: 121-29) Ms. Marous also told her friend that she was desperate to come to the United
States in order to be a free person. (RR VI:131-32)
11

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 12 of 25 PagelD #: 3670

29. Applicant has offered no evidence or fact specific authority that
counsel’s strategic decision was unreasonable or that no reasonable
attorney could have made the same decision.
Findings of Fact and Recommendation at 6. Meanwhile, trial counsel’s affidavit to
the state habeas court stated:

While the complainant testified, she did not testify she believed the
threat was of eminent [sic.] harm or fear of injury we had no way of
rebutting this statement, except by applicant, who testified no type of
rape ever occurred.
I do not believe we were entitled to a lesser-included charge of sexual
assault unless there was some evidence that the offense occurred.
Mr. Shakouri would not admit it occurred and neither did anyone else.
It was either aggravated assault or not guilty.
To the defense, it was just one in another embellishment of the facts.
Affidavit of Bull Burdock at 4.
h- The State Habeas Court Decision Is Based on an Unreasonable
Determination of the Facts in Light of the Evidence Presented in the
State Court Proceeding.
First, while it is true that Mr. Shakouri denied ever assaulting Ms. Marous,
there is absolutely no evidence in the record, let alone at the cited page 4 of trial
counsel’s affidavit, that Mr. Shakouri would not allow his trial counsel to propose a
lesser-included instruction or that he “dictated” an “all or nothing defense.” In sum,
this factual finding by the state habeas court is in no way supported by the evidence
12

Case 4;15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 13 of 25 PagelD #: 3671

presented in the state court proceeding.
Second, the state habeas court’s finding that trial counsel made a “strategic
decision” not to request the lesser-included instruction is demonstrably false based
on the record. Indeed, trial counsel’s affidavit says absolutely nothing about making
a “strategic decision” not to seek a lesser-included instruction. Instead, counsel’s
affidavit states he did not request one because he did not believe he was legally
entitled to one. As discussed below, trial counsel was mistaken regarding the law.6
Respondent now continues this canard before this Court.

Indeed, in

Respondent’s response she continues to claim that trial counsel’s failure to request
the lesser-included instruction was the result of trial strategy despite trial counsel’s
affidavit to the contrary. Response at 29.
2. Trial Counsel Was Ineffective under Texas Law for Not
Requesting the Lesser-included Instruction of Non-Aggravated
Sexual Assault
a. Texas Law on Lesser-included Instructions
Under Texas law there is a two-step process to determine if a defendant is
entitled to a lesser-included offense instruction upon request. Ex parte Watson, 306
S.W.3d 259, 273 (Tex. Crim. App. 2009). Without question, sexual assault is
6This is also further evidence that Mr. Shakouri did not “dictate” that a lesser-included
instruction not be requested. Obviously, if trial counsel did not think Mr. Shakouri was entitled
to such an instruction, he would not have had any reason to discuss it with Mr. Shakouri in order
to even give Mr. Shakouri a chance to “dictate” his position.
13

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 14 of 25 PagelD #: 3672

included in the proof necessary to establish the offense of aggravated sexual assault.7
Thus, the question becomes whether there was even a scintilla of evidence introduced
at trial that would indicate that, if Mr. Shakouri was guilty, he was only guilty ofnonaggravated sexual assault and not aggravated sexual assault.
The Texas Court of Criminal Appeals explained how courts in Texas should
analyze the second prong of the test:
This Court analyzes the issue of lesser included offenses in terms of
determining whether there is any evidence in the record from any source
to indicate if appellant was guilty, he was guilty only of the lesser
included offense. “Anything more than a scintilla of evidence is
sufficient to entitle a defendant to a lesser charge.” Bignall, 887 S.W.2d
at 23; and cases cited therein. If there is evidence within a defendant's
testimony which raises the lesser included offense, it is not dispositive
that this evidence does not fit in with the larger theme of that defendant's
testimony. Id. Whether there is evidence, within or without the
defendant's testimony, which raised the lesser included offense controls
the issue ofwhether an instruction on the lesser included offense should
be given.
It does not matter whether the evidence was admitted by the State or the
defense. It does not matter if the evidence was strong or weak,
unimpeached or contradicted. Rousseau v. State, 855 S.W.2d 666, 672
(Tex. Crim. App. 1993); and Bell v. State, 693 S.W.2d 434, 442 (Tex.
Crim. App. 1985). The trier of fact is always free to selectively believe
all or part of the testimony proffered and introduced by either side.
Bignall887 S.W.2d at 24; and cases cited therein. So long as there is
some evidence which is “directly germane” to a lesser included offense
for the factfinder to consider, then an instruction on the lesser included

7See, e.g., Curtis v. State, 89 S.W.3d 163, 178-79 (Tex. App.- Ft. Worth 2002); Chavis v.
State, 807 S.W.2d 375, 377 (Tex. App.-Houston [14th Dist.] 1991).
14

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 15 of 25 PagelD #: 3673

offense is warranted. Bignall, Id.; and Skinner v. State, 956 S.W.2d 532,
543 (Tex. Crim. App. 1997).
Jones v. State, 984 S.W.2d 254, 257 (Tex. Crim. App. 1998).
For example, in Jones, the Court of Criminal Appeals was confronted with an
allegation the Mr. Jones stole items from a grocery store and fought with store
employees when they attempted to detain him. Id. at 255. As a result, he was put on
trial for robbery. Id. Mr. Jones testified at trial in his own defense and denied both
the theft and the assault. Id. Nevertheless, the Court of Criminal Appeals held that,
based on Mr. Jones’s testimony, Mr. Jones was entitled to an assault instruction as a
lesser-included offense to the offense of robbery.
[W]hen appellant testified that he did not commit a theft at Fiesta, the
jury was free to believe his testimony that he did not intend to steal
anything and never left the store with property which he had not paid
for. A “lesser included offense may be raised if evidence either
affirmatively refutes or negates an element establishing the greater
offense.” Schweinle v. State, 915 S.W.2d 17, 19 (Tex. Crim. App.
1996). Here, appellant's testimony that he did not steal or intend to steal
negated the theft element of the robbery charge. If the jury believed
appellant's testimony that he did not steal and believed the State's
evidence that he struck Michelle Yancey, they could rationally conclude
that appellant committed assault and not theft. When appellant denied
he committed the theft, even though it was in the context ofdenying all
criminal intent; the trial court should have instructed the jury on the
lesser included offense of assault. We conclude the trial court erred
when it denied appellant's request for instructions on the lesser included
offense of misdemeanor assault.

15

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 16 of 25 PagelD #: 3674

Id. at 257 (emphasis added).
In sum, Texas law is clear that if there is even a scintilla of evidence in the
record and regardless of the strength of the evidence, a defendant is entitled to a
lesser-included instruction. Moreover, it does not matter if the defendant denies both
the lesser-included offense and the greater offense.
b. Even Assuming a Sexual Assault. Without an
“Imminent” and Non-conditional Threat to Cause a
Complainant Death or Serious Bodily Harm a
Defendant Is Guilty of Only Non-Aggravated Sexual
Assault and Not Aggravated Sexual Assault
The indictment in this case charged Mr. Shakouri with the aggravated sexual
assault of Ms. Marous because he allegedly placed her “in fear that death or serious
bodily injury would be imminently inflicted [on her].”8 Without proof that Ms.
Marous was placed in imminent fear of death or serious bodily injury, Mr. Shakouri
would, at most, be guilty of non-aggravated sexual assault.
The Texas Court of Criminal Appeals has interpreted an “imminent” threat to
mean a present, not a future, threat of bodily injury or death. Devine v. State, 786
S.W.2d 268,270 (Tex. Crim. App. 1989). The Court of Criminal Appeals has also
made clear that a conditional threat of death, if a rape victim tells anyone about a
8Under Texas law, “serious bodily injury” means “bodily injury that creates a substantial
risk of death or that causes death, serious permanent disfigurement, or protracted loss or
impairment of thefunction ofany bodily member or organ” Tex. Penal Code § 1.07(46)
(emphasis added).
16

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 17 of 25 PagelD #: 3675

sexual assault is insufficient to satisfy the requirement of the aggravated rape statute
that the threat be imminent. Blount v. State, 542 S.W.2d 164, 166 (Tex. Crim. App.
1976). Likewise, another Texas court found that a defendant’s statement to a victim
(after a rape), that she was a “dead duck” if she called the police, was not considered
to be an “imminent” threat. Douglas v. State, 740 S.W. 2d 890, 892 (Tex. App-El
Paso 1987).
c. Contrary to Trial CounseTs Belief- Mr. Shakouri
Was Entitled to the Lesser-included Instruction for
Non-aggravated Sexual Assault
Trial counsel’s own affidavit avers: “While the complainant testified, she did
not testify she believed the threat was of eminent [sic.] harm or fear of injury.” Thus,
it is truly bizarre that trial counsel did not believe that “we were entitled to a lesserincluded charge of sexual assault.”
To have been entitled to the lesser-included instruction for non-aggravated
sexual assault, there simply had to be a scintilla of evidence that Mr. Shakouri did not
make any threat to Ms. Marous or that any threat he made was not an “imminent
threat,” but, instead, a conditional threat of death or serious bodily injury.
Here, Mr. Shakouri testified that no threat was made and, therefore, he would
have been entitled to the lesser included instruction under the rationale set forth by

17

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 18 of 25 PagelD #: 3676

the Texas Court of Criminal Appeals in Jones.9 Moreover, Ms. Marous’s testimony
indicated that most, if not all, of the threats of death or serious bodily injury she
alleged that Mr. Shakouri made were not imminent but rather conditional threats of
death or serious bodily injury ifshe told others about the alleged abuse. For example,
Ms. Marous testified that she believed that Mr. Shakouri knew of the disclosure she
made to her sister and that he then, via telephone, threatened to rape and kill her ifshe
told anybody or the police about the alleged abuse. (RRIV: 194) Ms. Marous also
testified that, during an alleged sexual assault, Mr. Shakouri told her “ifyou would
say anything to anybody, I will kill you and your child.” (RR IV: 170 (emphasis
added)).10
In sum, there was certainly a scintilla of evidence in the record that any threat
of death or serious bodily injury that Mr. Shakouri allegedly made to Ms. Marous was
a conditional threat to kill her if she informed the police or others about the alleged
sexual abuse. Clearly, under Blount and Douglas, this evidence would support a
9Jones 984 S.W.2d at 257 (“Here, appellant's testimony that he did not steal or intend to
steal negated the theft element of the robbery charge. If the jury believed appellant's testimony
that he did not steal and believed the State's evidence that he struck Michelle Yancey, they could
rationally conclude that appellant committed assault and not theft. When appellant denied he
committed the theft, even though it was in the context of denying all criminal intent, the trial
court should have instructed the jury on the lesser included offense of assault.”).
10Ms. Marous also testified that, on the final night in the home when she, her son and her
sister allegedly hid in a closet, that Mr. Shakouri had a telephone conversation with his brother in
which he threatened to “really bother her” and to kill her and her sister. (RR IV: 196)
Significantly, this alleged threat was not connected with any sexual assault.
18

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 19 of 25 PagelD #: 3677

conviction for non-aggravated sexual assault and “so long as there is some evidence
which is ‘directly germane’ to a lesser included offense for the factfinder to consider,
then an instruction on the lesser included offense is warranted.” Jones, 984 S.W.2d
at 257 (citations omitted).
d. Mr. Shakouri Was Prejudiced by the Failure to
Request the Lesser-Included Instruction.
In light of the state habeas court’s erroneous finding that the failure to request
the lesser-included instruction was the result of “trial strategy” despite trial counsel’s
affidavit that indicates a misunderstanding of the law on this subject, the state habeas
court never reached the issue of prejudice.
Under Texas law, if the absence of the lesser-included offense instruction left
the jury with the sole option either to convict the defendant of the charged offense or
to acquit him, harm exists. Saunders v. State, 913 S.W.2d 564, 571 (Tex .Crim.
App.1995). Indeed, the United States Supreme Court had noted:
Moreover, it is no answer to petitioner's demand for a jury instruction on
a lesser offense to argue that a defendant may be better off without such
an instruction. True, if the prosecution has not established beyond a
reasonable doubt every element of the offense charged, and if no lesser
offense instruction is offered, the jury must, as a theoretical matter,
return a verdict of acquittal. But a defendant is entitled to a lesser
offense instruction—in this context or any other—precisely because he
should not be exposed to the substantial risk that the jury’s practice will
diverge from theory. Where one of the elements of the offense charged
remains in doubt, but the defendant is plainly guilty of some offense, the
19

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 20 of 25 PagelD #: 3678

jury is likely to resolve its doubts in favor of conviction.
Keeble v. United States, 412 U.S. 205, 208 (1973).11
Given this case law as well as the fact that most if not all of the evidence
regarding threats of death or serious bodily injury involved a conditional threat to kill
Ms. Marous ifshe informed the police or others about the alleged sexual abuse, there
is certainly at least a reasonable probability that had a lesser-included instruction been
given the outcome of the trial may have been different.
B. The State Used False Testimony at Trial.
This ground relates to the discovery after trial of a witness, Mohammad R.
Manteghinezhad, who averred that Ms. Marous admitted that she had played the
system in order to enter into and remain in the United States. See Attachment A. In
recommending denial of relief on this ground the state habeas court made the
following findings, inter alia:
104. Manteghinezhad’s affidavit does not state whether he prepared his
affidavit himself or whether he signed a pre-prepared affidavit.
105. Manteghinezhad’s affidavit appears to have been prepared by
another person because it contains a blank for him to fill-in the last four
digits of his social security number.
See also Beck v. Alabama, 447 U.S. 625, 634 (1980) (Also noting that a jury, believing
a defendant to have committed some crime, but given only the option to convict him of a greater
offense, may choose to find the defendant guilty of the greater offense, rather than to acquit him
altogether, even though the jury may have a reasonable doubt the defendant really committed the
greater offense);
20

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 21 of 25 PagelD #: 3679

106. Applicant’s supplemental writ application does not state who
provided Manteghinezhad’s signed affidavit to writ counsel.
107. Manteghinezhad’s are unsupported by other evidence.
108. The allegations in Manteghinezhad’s [six.] were previously,
generally raised at trial and rejected by the jury.
109. Consistent with the Court’s findings as to Ground 2, the statements
of [Ms. Marous in her habeas court affidavit]..are credible.
110. Manteghinezhad’s are not credible.
Findings of Fact and Recommendation at 15. Significantly, despite Mr. Shakouri’s
request, the state habeas court refused to hold a live evidentiary hearing at which Mr.
Manteghinezhad’s live testimony could have been presented. It is also significant
that the jury handling the state habeas proceeding was not the trial judge.
1. The State Habeas Court Decision Is Based on an Unreasonable
Determination of the Facts in Light of the Evidence Presented in the
State Court Proceeding
The most glaring problem in the state habeas court’s analysis is the fact that the
main reason it appears that it found Mr. Manteghinezhad’s affidavit not to be credible
is because the Court suspected it might have been prepared by another and given to
Mr. Manteghinezhad to sign. Nevertheless, the state habeas court found Ms.
Marous’s affidavit to be credible despite that fact that she acknowledged that her
affidavit was prepared by the Assistant District Attorney representing the state in the
21

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 22 of 25 PagelD #: 3680

habeas proceedings. See Affidavit of Afsaneh Marous at 1) 1. Indeed, Mr. Marous’s
affidavit is in prefect English despite the fact that she admittedly had only a limited
ability to speak English. Id. at U 2. There is no explanation as to why one affidavit
is discounted because it may have been prepared by somebody other than the affiant,
yet another affidavit is credible where it was admittedly prepared by a party to the
proceeding.
Next, although the state habeas court made a factual finding that
“Manteghinezhad’s are unsupported by other evidence,” the state habeas court points
to no other evidence that is inconsistent with Mr. Manteghinezhad’s claim that Ms.
Marous admitted to him that she had perpetrated a fraud in this case in order to come
to and remain in the United States. Moreover, while it is certainly true that this
theory was presented at trial, this was direct evidence of the complainant herself
admitting to the conduct of which the defense accused her.
2. The New Evidence from Mr. Manteghinezhad Certainly Raises
a Reasonable Probability That Ms. Marous Committed Perjury at
Trial.
As noted above, either Afsaneh Marous was a sexually abused woman entitled
to protection under the VAWA or she, like others have done, has perpetrated a serious
fraud upon the state court in order to be able to remain in the United States of
American and have a path to citizenship. Undersigned counsel submits that it should
22

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 23 of 25 PagelD #: 3681

be of paramount concern to the integrity of the court system and the VAWA that
every effort be made to determine if Ms. Marous is, in fact, perpetrating a fraud on
the courts.

Toward that end, undersigned counsel met personally with Mr.

Manteghinezhad on October 7, 2016 in order to attempt to assess Mr.
Manteghinezhad’s credibility. Based on this meeting, it certainly appears that Mr.
Manteghinezhad’s claims that Ms. Marous is perpetrating a fraud on the courts is
worthy of further development.
Indeed, as indicated above, there is certainly some evidence that Ms. Marous’s
claims of abuse are dubious. First, despite the fact that she claimed that Mr. Shakouri
often used a large purple dildo and other dildos to anally and vaginally rape her, a
doctor testified at trial that, based on Ms. Marous’s medical records, there was
absolutely no evidence of trauma or scarring to her anus and that, had Ms. Marous
been raped anally with the dildos she described and which were admitted into
evidence, there would have been scar tissue left which would be apparent upon
examination. Likewise, Ms. Marous’s description of Mr. Shakouri’s alleged sexual
preference was completely at odds with the testimony from Mr. Shakouri’s first wife.
In sum, there is a serious possibility that Ms. Marous, like many others have
done, is exploiting the “vulnerability” in the VAWA. While that theory was
“generally raised” at trial and there was some evidence to indicate that this was the
23

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 24 of 25 PagelD #; 3682

case, Mr. Manteghinezhad’s can now provide the direct evidence that Mr. Shakouri
was unable to provide at trial. For the state habeas court to say that one affidavit was
not credible because the affiant might have received assistance in preparing it but that
another affidavit was credible when the affiant admittedly received assistance in
preparing it is certainly unreasonable. This is especially so when the state habeas
judge was different than the state trial judge and Mr. Shakouri was denied an
evidentiary hearing.

Respectfully submitted,

/s/ F. Clinton Broden
F. Clinton Broden
TX Bar No. 24001495
Broden & Mickelsen
2600 State Street
Dallas, Texas 75204
214-720-9552
214-720-9594 (facsimile)
clint@texascrimlaw.com
Attorney for Petitioner
Shahram Shakouri

24

Case 4:15-cv-00447-ALM-KPJ Document 24 Filed 11/21/16 Page 25 of 25 PagelD #: 3683

CERTIFICATE OF SERVICE
I, F. Clinton Broden, certify that on November 21,20161 caused a copy of the
above document to be served by all parties via electronic filing.

/si F. Clinton Broden
F. Clinton Broden

25

